    Review Of Matters Related
         To The Death Of
Corporal Patrick Tillman, U.S. Army

  Report Number IPO2007E001

         March 26, 2007
                                                                                    26
 MEMORANDUM FOR ACTING SECRETARY OF THE ARMY

 SUBJECT: Review of Matters Related to the Death of Corporal Patrick Tillman,
          U.S. Army


        This report provides the results of a review, which we initiated at the request of the Army
Inspector General, of actions taken by the chain of command following the friendly fire death of
Corporal Patrick Tillman in Afghanistan on April 22, 2004. Our review sought to determine
whether investigations were adequate, whether Army notification of next of kin complied with
regulations, and whether documentation to justify the posthumous award of the Silver Star was
accurate. In addition, this report provides a summary of the concurrent investigation by the
Army Criminal Investigation Command into the facts and circumstances of Corporal Tillman's
death (full report issued separately). We concur with the results of that investigation.

        First, we wish to express our sympathy to the Tillman family over the loss of a husband,
son, and brother. We regret the length of time taken to put to rest lingering concerns regarding
the nature of Corporal Tillman's death and the associated frustration endured by the family over
the past 3 years.

        Our review found that Corporal Tillman's chain of command made critical errors in
reporting Corporal Tillman's death and in assigning investigative jurisdiction in the days
following his death, and bears ultimate responsibility for the inaccuracies, misunderstandings,
and perceptions of concealment that led to our review. Those errors, in part, contributed to
omissions and inadequacies in the three investigations that followed Corporal Tillman's death.
Additionally, we concluded that Army officials failed to properly update family members when
an investigation was initiated into Corporal Tillman's death and that the justification for his
Silver Star contained inaccuracies.

        We recommend that you consider appropriate corrective action with respect to officials
whom we identified as accountable for the regulatory violations and errors in judgment that are
described in this review. Additionally, we recommend that you initiate a review of the Silver
Star award to ensure that it meets regulatory requirements. We note that the Army has already
taken action to delay approval of posthumous valor awards until completion of pending
investigations and has strengthened guidance concerning next of kin notifications.

       We appreciate the courtesies extended to our investigative staff. Should you have any
questions, please contact me or Mr. John R. Crane, Assistant Inspector General,
Communications and Congressional Liaison, at (703) 604-8324.



                                              Thomas F. Gimble
                                              Acting

cc: Chairman, Joint Chiefs of Staff
                                 FOR OFFICIAL USE ONLY
 IP02007EOO1


                                         FOREWORD

        The course of this review, in particular the central issues, was framed through a series of
requests from the Army Inspector General, Members of Congress, and the family of
Corporal Patrick Tillman concerning Corporal Tillman's death by friendly fire while
participating in combat operations in Afghanistan on April 22, 2004.

        Within 30 days thereafter, Corporal Tillman's death was investigated twice by Army
officers under the provisions of Army Regulation 15-6, "Procedures for Investigating Officers
and Boards of Officers." Because of unresolved concerns regarding the nature of
Corporal Tillman's death and its aftermath, a third investigation was complete~y
general officer in January 2005. However, by letter dated April 21, 2005, Mr. _
_         father of Corporal Tillman, raised significant issues with the results of that
investigation.

         By memorandum dated June 2, 2005, the Army Inspector Ge~uested that this
Office conduct an independent review of concerns expressed by Mr._ _ After completing
an initial assessment, we requested that the Army Criminal Investigation Command conduct a
full investigation into the facts and circumstances of Corporal Tillman's death. Concurrently, we
conducted a review of the three investigations noted above, the adequacy of Army notifications
to the Tillman family in the weeks following his death, and the basis for the posthumous award
of the Silver Star.

         Several Members of Congress also questioned the series of events that led to
Corporal Tillman's death, subsequent investigations, the need to establish accountability in
matters concerning the death and its aftermath, and the possibility of an Army cover-up.
Correspondence to this Office from Senator John McCain in July 2005 and
Representative Michael M. Honda in August 2005 questioned specific findings of the
investigations. Correspondence from Senator Charles Grassley, Representative Zoe Lofgren,
and Representatives Honda, Ike Skelton, Christopher Shays, and Dennis Kucinich in March 2006
reiterated those concerns, requested further explanations regarding Army actions taken following
Corporal Tillman's death, and asked for briefings after we completed our work.

       In addition, the Senate Armed Services Committee, the House Armed Services
Committee, and the Subcommittee on National Security, Emerging Threats, and International
Relations (House Committee on Government Reform) requested the results of our review.

         This report provides the results of our review and summarizes results of the concurrent
investigation by the Army Criminal Investigation Command. The full Army Criminal
Investigation Command report is being issued separately. We concur with the results of that
investigation. Although some of the Army activities related to Corporal Tillman's death remain
classified, this report is unclassified to promote maximum utility and avoid delays that would
attend a classified issuance.




                                 FOR OFFICIAL USE ONLY
 IP02007EOO1


                                      TABLE OF CONTENTS

                         Section

I.     INTRODUCTION AND SUMMARY                                                  1

II.    BACKGROUND                                                                4

III.   SCOPE OF THE INVESTIGATION                                                5

IV.    FINDINGS AND ANALYSIS                                                     6

       A. Did responsible officials comply with applicable standards for
             investigating friendly fire deaths?                                 6

             1. Captain _      s Investigation                                  13

             2. Lieutenant Colonel_s Investigation                              29

             3. Brigadier General Jones' Investigation                          32

       B. Did responsible officials comply with applicable standards for
          notification of next of kin with regard to Corporal Tillman's death
          and related investigations?                                           40

       C. Did responsible officials comply with applicable standards for
          award of the Silver Star to Corporal Tillman?                         48

V.     CONCLUSIONS                                                              59

VI.    RECOMMENDATrONS                                                          61


Appendix A      Summary of Army Criminal Investigation Command Report

Appendix B      Chronology

Appendix C      Fratricide Investigation Process

Appendix D      Casualty Reporting and Next of Kin Notification Process

Appendix E      Silver Star Award Process

Appendix F      Silver Star Award Details

Appendix G      Justification Submitted to Support Silver Star




                                   FOR OFFICIAL USE ONLY
IP02007EOOI



                           List of Acronyms

Acronym       Refers to:

 ILT           First Lieutenant (Army)
 ISG           First Sergeant (Army)
ACM            Anti-Coalition Members
AFME           Armed Forces Medical Examiner
AMF           Afghan Military Forces
AR            Army Regulation
BG            Brigadier General (Army)
CAO           Casualty Assistance Officer
CENTCOM       U.S. Central Command
CID           Army Criminal Investigation Command
CMAOC         Casualty and Memorial Affairs Operations Center
COL           Colonel (Army)
CPL           Corporal (Army)
CPT           Captain (Army)
CW3           Chief Warrant Officer Three (Army)
DA            Department of the Army
DoD           Department of Defense
DoDI          Department of Defense Instruction
E-I           Enemy Position I
E-3           Enemy Position 3
FOB           Forward Operating Base
GCMCA         General Court-Martial Convening Authority
GEN           General (Army)
LTC           Lieutenant Colonel (Army)
LTG           Lieutenant General (Army)
MAl           Major (Army)
MajGen        Major General (Marine Corps)
MG            Major General (Army)
MOLLE         Modular Lightweight Load-Carrying Equipment
NCO           Noncommissioned Officer
NOK           Next of Kin
P4            Personal For
PFC           Private First Class (Army)
PNOK          Primary Next of Kin
SFC           Sergeant First Class (Army)
SOCOM         U.S. Special Operations Command
SOP           Standard Operating Procedure
SPC           Specialist (Army)
SSG           Staff Sergeant (Army)
UNK           Unknown
USASOC        U.S. Army Special Operations Command




                     FOR OFFICIAL USE ONLY
 IP02007EOO1


                                 REVIEW OF MATTERS RELATED
                                      TO THE DEATH OF
                             CORPORAL PATRICK TILLMAN. U.S. ARMY


 1.       INTRODUCTION AND SUMMARY

         We initiated the review to address allegations that three sequential investigations into the
 "friendly fire" death of Corporal (CPL) Patrick Tillman, U.S. Army, on April 22, 2004, in
 Afghanistan, did not meet established investigative standards and, therefore, failed to disclose
 relevant facts of his death or assign requisite accountability. Additionally, our review sought to
 determine whether those investigations, as well as the delayed notifications to CPL Tillman's
 family members and the posthumous award of the Silver Star based on erroneous information,
 were indicative of an Army effort to conceal the circumstances of CPL Tillman's death or
 possible misconduct by those involved. 1 In doing so, we focused our review on the following
 specific issues:

          fl   Did responsible officials comply with applicable standards for investigating friendly
               fire deaths?

          fl   Did responsible officials comply with applicable standards for notification of next of
               kin of CPL Tillman's death and related investigations?

         fl    Did responsible officials comply with applicable standards for award of the Silver
               Star to CPL Tillman?

        Apart from those issues, our initial assessment found that questions remained regarding
the events that transpired during the course of the friendly fire incident itself, particularly with
respect to conduct of the Service members involved. Because of its investigative capability and
independence, we requested the Army Criminal Investigation Command (CID) to investigate the
circumstances of CPL Tillman's death and the death and injuries to others in the incident. After
conducting extensive investigative work, including restaging of the incident on-site, the Army
CID found insufficient evidence to support any further action under the Uniform Code of
Military Justice.i We concur with that conclusion and have provided a summary of those
investigative results at Appendix A to this report. The Army CID will issue its full report
separately.




1 We initiated our review in response to a request from the Army Inspector General, who determined that an
independent examination was needed after the third Army investigation failed to resolve issues raised by the Tillman
family.

2 Based on initial Army investigations, some of the Service members involved in the incident received non-judicial
punishment for dereliction of duty under Article 15 of the Uniform Code of Military Justice.



                                        FOR OFFICIAL USE ONLY
    IP02007EOO1                                                                                     2


            Our review concluded that CPL Tillman's chain of command made critical errors in
    reporting CPL Tillman's death and in assigning investigative jurisdiction in the days following
    his death, and bears ultimate responsibility for the inaccuracies, misunderstandings, and
    perceptions of concealment that led to our investigation. For example, CPL Tillman's chain of
    command failed to timely report suspected death by friendly fire. Established Army policy
    required notification of death by friendly fire, which was suspected the day following the
    incident, up through the chain of command as well as to the Army Safety Center. 3 In tum, DoD
    guidance required that the Combatant Commander convene a legal investigation and authorized
    the cognizant Service to convene any safety investigation required by its regulations. The safety
    investigation required by Army regulations would have been conducted by a board of trained,
    experienced investigators who would have collected, processed, and retained forensic evidence,
    and coordinated with criminal investigative authorities if warranted. Both legal and safety
    investigations would have been independent of CPL Tillman's immediate chain of command
    and, therefore, not vulnerable to accusations that command Service members were shielded from
    culpability.

         None of CPL Tillman's superiors complied with these requirements. Instead, after clear
evidence of fratricide emerged the day following the incident, CPL Tillman's battalion
commander (a lieutenant colonel three levels below the Combatant Commander), with the
concurrence of his regimental commander, appointed a subordinate Army captain to investigate.
That investigation, completed in about 2 weeks, determined CPL Tillman's death was fratricide
caused by leadership failures and tactical errors. Dissatisfied with the thoroughness of that
investigation, CPL Tillman's regimental commander (a colonel) ordered his own executive
officer (a lieutenant colonel) to conduct a second investigation. That investigation, building on
the first, was completed in 9 days, confirmed death by friendly fire, and provided expanded
findings on the contributing tactical errors. No independent investigator; that is, outside
CPL Tillman's immediate chain of command, was appointed by appropriate authority until 6
months after CPL Tillman's death. A safety investigation was not initiated until nearly 6 months
after the incident when most of the forensic evidence had been destroyed. Expertise available
from the Army CID was not obtained until we initiated this review.

         We concluded that the first two investigations, conducted by officers in CPL Tillman's
battalion and regiment under Army Regulation (AR) 15-6, "Procedures for Investigating Officers
and Boards of Officers," were tainted by the failure to preserve evidence, a lack of thoroughness,
the failure to pursue logical investigative leads, and conclusions that were open to challenge
based on the evidence provided. More significantly, neither investigator visited the site to
visually reenact the incident, secure physical evidence, take photographs, or obtain accurate
measurements. In addition, the first investigating officer, with advice from his legal advisor,
withheld information concerning suspected fratricide from medical examiners who raised
questions based on anomalies they discovered during the autopsy. As a result, the first two
investigations lacked credibility and contributed to perceptions that Army officials were
purposefully withholding key information concerning CPL Tillman's death.




3   In 2005 the Army Safety Center was renamed the Army Combat Readiness Center.


                                       FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                        3


         In November 2004, because oflingering concerns regarding CPL Tillman's death, the
 Acting Secretary of the Army directed that Lieutenant General (LTG) Phillip R. Kensinger, Jr.,
 Commander, U.S. Army Special Operations Command (Airborne) (USASOC), conduct a third
 investigation. LTG Kensinger appointed a subordinate, Brigadier General (BG) Gary M. Jones,
 Commander, U.S. Army Special Forces Command (Airborne), to conduct the investigation.
 BG Jones' investigation was more thorough than the first two, included an on-site visit, and was
 pronounced legally sufficient by LTG Kensinger's Staff Judge Advocate in January 2005.

        Subsequent review by the Army Inspector General raised concerns which caused
BG Jones to conduct additional investigative work and file supplementary information.
However, weaknesses remained. Like the first two investigators, he also failed to interview
some witnesses who were part of the unit that fired on CPL Tillman's position. He did not
assess accountability for failures by the chain of command (including LTG Kensinger) to comply
with Army policy for reporting and investigating friendly fire incidents, to coordinate with other
investigative authorities, to provide timely information concerning suspected friendly fire to
CPL Tillman's next of kin, and to ensure accuracy in documentation submitted in support of the
Silver Star.

         Notwithstanding our conclusions with respect to these three investigations, we emphasize
that all investigators established the basic facts of CPL Tillman's death -- that it was caused by
friendly fire, that occupants of one vehicle in CPL Tillman's platoon were responsible, and that
circumstances on the ground at the time caused those occupants to misidentify friendly forces as
hostile. None ofthe investigations suggested that CPL Tillman's death was other than
accidental. Our review, as well as the investigation recently completed by the Army CID,
obtained no evidence contrary to those key findings.

         CPL Tillman's family members were not told of the investigations and subsequent
fratricide determination until 35 days after CPL Tillman's death, despite Army regulations that
require next of kin be advised of additional information concerning a Service member's death as
that information becomes available. Because CPL Tillman's regimental commander desired to
keep information concerning the death "close hold" until investigative results were finalized, no
"supplemental reports" were issued to correct initial reports that CPL Tillman's death was
caused by enemy fire. Although LTG Kensinger knew friendly fire was suspected and under
investigation before he served as the Army representative at CPL Tillman's memorial service on
May 3, 2004, he decided to withhold notification from family members until all facts concerning
the incident could be verified. Certain senior Army officials were aware of the friendly fire
investigation in early May, but none took measures to ensure that family members were, at a
minimum, advised that CPL Tillman's death was under review. We find no reasonable
explanation for these failures to comply with Army regulations.

        Finally, the citation and narrative justification submitted to support the Silver Star
awarded to CPL Tillman contained inaccurate information -- particularly with respect to
descriptions that suggested CPL Tillman performed heroically in the face of, and was killed by,
enemy fire. The two supporting valorous witness statements stamped "original signed" were
attributed to two ofCPL Tillman's platoon members, but were drafted by others and contained
inaccurate information. The posthumous presentation of the Silver Star to CPL Tillman as ifhe



                                 FOR OFFICIAL USE ONLY
    IP02007EOO 1                                                                                                      4


    had been killed by the enemy was ill-advised and contributed to continuing mistrust of Army
    representations to family members, especially since LTG Kensinger and other officials knew at
    the time that friendly fire was the likely cause of his death.

            We recommend that the Acting Secretary of the Army take appropriate corrective action
    with respect to officials whom we identified as accountable for the regulatory violations and
    errors in judgment that are described in this review. Additionally, we recommend that the
    Acting Secretary initiate a review of the Silver Star award to ensure that it meets regulatory
    requirements. We note that the Army already has taken action to delay approval of posthumous
    valor awards until completion of pending investigations and has strengthened guidance
    concerning next of kin notifications.

           This report sets forth our findings and conclusions based on a preponderance of the
    evidence.

    II.    BACKGROUND

        On April 22, 2004, the 2nd Platoon, A Company, 2nd Battalion, 75th Ranger Regiment
was conducting operations in the vicinity of Magarah, Afghanistan. Because of difficulties
caused by an inoperable tactical vehicle, and the mission to achieve an established objective by
nightfall, the platoon ground assault convoy, consisting of 41 Army Rangers, 4 Afghan Military
Forces (AMF) soldiers, and 12 vehicles, was split into 2 groups or "serials.,,4

        Serial 1 consisted of 19 R~n 4 U.S. vehicles and 2 AMF vehicles,
including First Lieutenant ( l L T ) _ ( t h e Platoon Leader), CPL Tillman; and
4 AMF soldiers.? Serial 2, commanded by Sergeant First Class (SFC)                      (the
Platoon Sergeant), consisted of22 Rangers and two local Afghans traveling in 4 U.S. vehicles
and a privately owned local vehicle (referred to as a "jinga" or "jingle" truck). The jinga truck,
driven by a local Afghan, was towing a fifth (inoperable) U.S. vehicle.

        After the split, Serial 1 traveled down the canyon road without incident arriving in the
vicinity of the village of Manah. Serial 2, however, did not proceed along the separate planned
route because SFC _          believed the risk of accidental injury or death to be too great given the
terrain. Therefore, SFC _          ordered Serial 2 to travel down the same canyon road that
Serial 1 had taken earlier.

       While traveling down the canyon road, Serial 2 carne under attack from enemy mortar
or rocket propelled grenades and small arms fire originating from the top of the canyon walls.
Upon ~ h i n dthem, Serial 1 personnel, led by Staff Sergeant
(SSG)                     (the squad leader), dismounted their vehicles and moved on foot


4 Service members involved in this incident were at the time members of the U.S. Army, 75th Ranger Regiment, and
its subordinate units unless otherwise identified.

5 ILT_like many other Service members involved in the friendly fire incident and its aftermath, has since
been promoted. However, in this report, we will identify Service members using the rank and position that they held
at the time of events at issue unless otherwise noted.


                                       FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                       5


 through a small (6-building) village to an elevated spur overlooking the canyon road below and
 across from the southern ridgeline. CPL Tillman, Private First Class (PFC)
 and an AMF soldier positioned themselves on the forward slope of the spur visible from and
 exposed to the canyon road below. lLT_and Specialist (SPC)_(the Radio
 Operator), having been delayed by handling communications devices, were positioned at the
 base of a building in the village some distance below and to the rear of SSG _      and other
 Serial 1 personnel.

        The first U.S. vehicle in Serial 2 was led by SSG                    (the squad leader),
with a driver and five other occupants. As SSG _and his crew moved down the canyon
road, they fired their weapons in suppressive fire along the canyon walls. When SSG_s
vehicle exited the narrow portion of the canyon road below the spur where CPL Tillman and his
team were located, occupants saw muzzle flashes coming from that position. SSG_and his
team directed their fire toward the muzzle flashes killing both CPL Tillman and the AMF soldier.
As SSG_s vehicle proceeded past the spur toward the vi~e vehicle occupants
continued to fire on the building in the settlement hitting 1LT _      in the face and SPC _
in the knee and chest with small arms fire.

        A chronology of events following the incident is provided as Appendix B to this report.

III.    SCOPE

        In the course of our review, we interviewed 106 witnesses with knowledge of the matters
under review, including soldiers from CPL Tillman's platoon, the chain of command of the
75th Ranger Regiment, the Commander, Joint Task Force (the operational commander over the
Ranger Regiment in Afghanistan), and the former Commander, USASOC, who had
administrative control of the Rangers. We also interviewed the Army officers who conducted
the three command investigations of the friendly fire incident; the Army Chief of Staff; the
Commander, U.S. Central Command (CENTCOM), who had overall operational control of the
Rangers; and the Commander, U.S. Special Operations Command (SOCOM). To further address
matters which arose during the review we also conducted 42 follow-up interviews. In addition,
we reviewed each of the earlier investigations and all of the documents associated with those
investigations, as well as relevant e-mail messages and internal documents within the operational
and administrative chains of command of the Ranger Regiment and similar communications
within the Department of the Army.

         As indicated above, inconsistencies in prior testimonial accounts of the incident, the
failure to preserve forensic evidence, and alleged deficiencies in the investigations ultimately led
to allegations that Army officials may have been attempting to conceal misconduct on the part of
Service members who were involved in the fratricide and its aftermath. In an effort to obtain
maximum evidence to resolve those matters, we requested that the Army CID investigate
CPL Tillman's death and the death and injuries to the other soldiers. That investigative work
was undertaken concurrent with our review. A summary of results is provided at Appendix A.
A full report is being issued separately.




                                  FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                                              6

 IV.      FINDINGS AND ANALYSIS

         A. Did responsible officials comply with applicable standards for investigating friendly
 fire deaths?

          Responsible officials failed to comply with applicable standards for investigating friendly
 fire deaths. Lack of timely notification from the chain of command that friendly fire was
 suspected delayed Army Safety Center involvement and prevented CENTCOM from convening
 a legal investigation. Neither of the first two investigating officers was properly appointed,
 visited the scene, preserved physical evidence, identified and interviewed all relevant witnesses,
 or resolved factual inconsistencies among witness statements. The second investigating officer
 drew conclusions not supported by evidence included in his report. Additionally, Ranger
 Regiment personnel withheld from the Armed Forces Medical Examiner (AFME) and Army CID
 the fact that friendly fire was suspected.

         The final investigating officer, a general officer, failed to interview all of the Rangers
involved to resolve the uncertainty in the sequence of events that occurred on April 22, 2004;
failed to apply relevant standards and assign accountability for the mishandling of physical
evidence; failed to fully address the next of kin notification issue as a violation of applicable
regulations; failed to pursue inaccuracies related to the Silver Star award, reached findings not
supported by testimony, and, in fact, exacerbated the situation by sharing those findings on the
Silver Star with family members, senior Army officials, and Members of Congress during
official briefings; and failed to pursue misrepresentations on the part of LTG Kensinger related
to the next of kin notification issue. Further, LTG Kensinger provided misleading testimony to
the third investigating officer and this Office when he denied that he knew friendly fire was
suspected before the memorial service for CPL Tillman.

Standards

        Note: The following standards set forth requirements for reporting and investigating
incidents where the suspected cause ofdeath is friendly fire. We examined the three command
investigations conducted with regard to CPL Tillman in light ofthose standards.

      Department of Defense Instruction (DoDI) 6055.7, "Accident Investigation,
Reporting, and Record Keeping," dated October 3, 2000

       The Instruction applies to all DoD Components, to include the Military Departments and
Combatant Commands, and sets forth DoD guidance for safety and legal investigations of
accidents.I' As to the relationship between the two types of investigations, the Instruction states
at Subsection 5.2.6, "The safety investigation is the primary investigation and shall control all
witnesses and evidence."


6 A "safety" investigation is conducted to determine the cause of an accident with the sole purpose of preventing
future accidents. In general, safety investigation reports are privileged and not releasable outside safety channels. A
"legal" investigation is undertaken to inquire into all the facts and circumstances surrounding an accident, as well as
to obtain and preserve all available evidence for use in litigation, claims, disciplinary actions, or adverse
administrative actions.


                                         FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                                         7



         With regard to friendly fire incidents, the Instruction directs that DoD Components "shall
 prepare" a legal investigation report, in addition to any authorized safety investigation report, in
 "all suspected cases of Friendly Fire." The Instruction further directs the Heads of DoD
 Components to comply with Section E4.7, "Investigating Friendly Fire Accidents," which states,

                For all accidents falling within the definition of Friendly Fire, the
                Combatant Commander will convene a legal investigation to
                determine the facts of the incident and guide further action. In
                consultation with the Combatant Commander, Service or other
                commanders may convene a safety investigation as required.

         The Instruction defines "Friendly Fire" as,

                A circumstance in which a member of a U.S. or friendly military
                force are mistakenly or accidentally killed or injured in action by U.S.
                or friendly forces actively engaged with an enemy or who are
                directing fire at a hostile force or what is thought to be a hostile force.

        The Instruction is silent on the procedures to be used to conduct legal investigations into
friendly fire incidents, but notes generally at Section 4.6 that legal investigations are to inquire
into facts and circumstances as well as "to obtain and preserve all available evidence" for use in
administrative actions, litigation, and claims. Further, Sections 5, "Responsibilities," and
Enclosure 4, "Procedures," require that the Heads of DoD Components establish procedures
implementing the Instruction, to include developing time lines for routinely updating the primary
next of kin of accident fatalities regarding the status of safety and legal investigations. 7

         DoDI 5154.30, "Armed Forces Institute of Pathology," dated March 18,2003

        Enclosure 2, "The AFME System," charges the AFME to conduct forensic investigations,
to include autopsies, to determine the manner and cause of death in all cases where an active
duty Service member is killed. Paragraph E2.2.6 directs that the AFME shall receive notification
of the deaths of all Service members on active duty, and shall have the authority to review all
pertinent information, to include investigative reports, photographs, and evidence.

       Army Regulation (AR) 15-6, "Procedures for Investigating Officers and Boards of
Officers," dated September 30, 1996

        The Regulation establishes Army procedures for administrative investigations and boards
of officers that are not specifically authorized by any other directive. The stated purpose of
AR 15-6 investigations and boards is to ascertain facts, make recommendations, and report them
to the appointing authority. Introductory language in the Regulation notes that investigations or



7 The phrase "primary next of kin" is defined in DoDI 1300.18, "Military Personnel Casualty Matters, Policies, and
Procedures," as the unremarried surviving spouse.



                                        FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                          8


boards appointed under a specific regulation or directive may apply AR 15-6 procedures, and
that, in the case of conflicting provisions, the more specific regulation takes precedence over the
terms of AR 15-6.

        Recognizing the existence of other investigations, Subparagraph 1-4.d, "Concurrent
investigations," directs appointing authorities, investigating officers, and boards

               [W]ill ensure that procedures under this regulation do not hinder or
               interfere with a concurrent investigation directed by higher
               headquarters, ... or an investigation being conducted by a criminal
               investigative [activity]. In cases of concurrent or subsequent
               investigations, coordination with the other command or agency
               should be made to avoid duplication of investigative effort, where
               possible.

       With regard to specific responsibilities, Paragraph 1-5, "Function of investigations and
boards," establishes the duty of the investigating officer or board to

             Ascertain and consider the evidence on all sides of each issue,
             thoroughly and impartially, and to make findings and
             recommendations that are warranted by the facts and that comply with
             the instructions of the appointing authority.

        Subparagraph 2-l.a, "Authority to appoint," directs that only a general court-martial
convening authority caCMCA) may appoint an investigation or board for incidents resulting in
the death of one or more persons. With regard to qualifications, Subparagraph 2-1.c, "Who may
be appointed," requires that investigating officers and board members,

             [S]hall be those persons who, in the opinion of the appointing
             authority, are best qualified for the duty by reason of their education,
             training, experience, length of service, and temperament, [and]

             [W]ill be senior to any person whose conduct or performance of duty
             may be investigated, or against whom adverse findings or
             recommendations may be made, [with limited exception].

        Subparagraph 2-l.c continues, that should an investigating officer discover during the
investigation that completion of the investigation requires examining the conduct or performance
of duty of, or may result in findings or recommendations adverse to, a person senior to the
investigating officer, he must report that fact to the appointing authority. The appointing
authority is then obligated to appoint a more senior investigating officer or conduct a separate
inquiry into the matters pertaining to that person.




                                 FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                                      9


         With regard to standard of proof, findings, and recommendations, Paragraphs 3-9,
 "Findings," and 3-10, "Recommendations," require that findings be supported by the
 preponderance of the evidence of record in the report, and that recommendations be consistent
 with those findings.

         Paragraph 3-15, "Exhibits," details the handling of evidence and its inclusion in the
 investigating officer's written report. With regard to physical objects, Subparagraph 3-15.b,
 "Real evidence," highlights the importance of including clear and accurate written descriptions
 or depictions (such as photographs) of physical evidence in the report. The Subparagraph further
 stresses, "The real evidence itself should be preserved, including chain of custody where
 appropriate, for use if further proceedings are necessary." The exhibit in the report should tell
 where the real evidence can be found, and after final action has been taken in the case, the
 evidence should be disposed of as for provided in Army regulation.

          AR 385-40, "Accident Reporting and Records," dated November 1,1994

         The Regulation defines "accident" as "an unplanned event that causes personal injury or
illness, or property damage." Paragraph 2-2, "Accident and incident classes," groups accidents
into four classes according to their consequences. An accident resulting in a fatality qualifies as
a "Class A" accident, the most serious of the four classes.

         In addressing fratricide, the Regulation notes that DoDI 6055. 7 is the primary authority
for investigating and reporting friendly fire accidents. Subparagraph 2-4.q, "Fratricide," states
that friendly fire accidents are "special situations" that must be reported promptly and
investigated thoroughly with both a safety investigation conducted under the provisions of the
Regulation and a legal investigation conducted under the provisions of the Regulation and
AR 15-6.8

        Paragraph 1-4, "Responsibilities," requires commanders at all levels to comply with the
Regulation's accident reporting and investigating requirements, and specifically charges
commanders of Army Major Commands to ensure that accidents are investigated and analyzed.
Paragraph 3-2, "Commander's responsibility," provides general guidance and requires the
commander who first becomes aware of any Army Class A accident to immediately notify,
through the chain of command, the Commander, Army Safety Center. Should a Class A
accident occur in combat, Paragraph 3-5 still requires immediate notification of the Army Safety
Center designated contact, unless the senior tactical commander waives notification based on his
determination that the situation, conditions, and/or time does not permit normal reporting and
investigation. The senior tactical commander's decision to waive normal reporting and
investigating must be reported in writing along with the commander's name and rank.




8 Army publications refer to "legal" and "safety" investigations as "collateral" and "accident" investigations,
respectively.



                                         FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                                      10


         Paragraph 1-8, "Collateral investigation and reports," states that the safety investigation
 board has priority over the legal investigation, and Paragraph 1-9, "Accident investigation board
 appointing authority," directs, in relevant part, that the commander having general court-martial
 jurisdiction over the unit responsible for the operation or personnel involved in the accident
 appoint the safety investigation board.

        Chapter 4 details guidance for safety investigations, and, in Paragraph 4-3, "Class A and
 B Accident Investigations," provides for two different procedures for safety investigations of
 accidents: a centralized accident investigation" or an installation-level accident investigation.
 Both centralized and installation-level investigations require the appointing authority to appoint a
safety investigation board of three or more members. However, in a centralized investigation the
 Commander, Army Safety Center, provides to the appointing authority Safety Center personnel
to serve as board members and identifies to the appointing authority any special requirements
and qualifications for local board members. The Regulation empowers the Commander, Army
Safety Center, to determine whether a centralized or installation-level investigation will be
conducted, and directs him to make that determination "upon notification of a Class A or B
accident." Finally with regard to safety investigation boards, Paragraph 4-2 requires board
members to be from organizations other than the activity or unit incurring the accident and to be
screened to ensure that no member has an interest in the accident that may bias the outcome of
the investigation.

        With regard to gathering evidence at the accident scene, Paragraph 4-5, "Accident scene
preservation," provides that where the situation does not permit the scene to be preserved,
Military Police or CID personnel will remove all items of evidence needed for their investigation
and, whenever possible, will photograph the items before they are collected. Debris that must be
moved will be stored in a secure area and guarded until released by the board president. The
appointing authority will ensure that photos are taken and a sketch of the scene is made with
sufficient detail and measurements to allow a scale drawing to be made. Further, all damage and
ground markings incident to the accident will be identified and photographed before
measurement and cleanup of the accident scene. The sketch and photographs will be provided to
the president of the board as soon as possible after arrival.

      AR 600-8-1, "Personal Affairs, Army Casualty Operations/Assistancellnsurance,"
dated October 20, 1994

       The Regulation prescribes policies and tasks governing U.S. Army casualty operations.
The Regulation reiterates the requirement that fatal accidents be investigated with both safety
and legal investigations. Paragraph 2-12, "Casualty reporting during hostilities," states, in part,
at subparagraph d:

                All suspected friendly fire incidents will require an AR 15-6
                investigation. A board of officers will be appointed under AR 15-6 to
                inquire into the suspected friendly fire incident. The board will be


9 A later paragraph of the Regulation refers to the centralized investigation as a "USASC [U.S. Army Safety Center]
accident investigation board."


                                        FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                                          11


                 appointed by the commander having general court martial jurisdiction
                 over the unit to which the casualty was assigned (or a higher authority
                 designated by a commander authorized to make such designation)....
                 The board will consist of not less than three commissioned officers
                 (field grade recommended).

        AR 600-34, "Fatal Training/Operational Accident Presentations to the Next of Kin,"
 dated January 2, 2003

         The Regulation provides Army guidance on legal investigations of fatal accidents and
 presentations on such accidents to a soldier's next of kin. Paragraph 1-15, "The
 appointing/approving authorities of the [legal] investigation," mandates the appointment of
 investigating officers in accordance with the Regulation and AR 15_6. 10

        Paragraph 1-18, "Concept," directs legal investigations "conducted under the provisions
of AR 15-6, AR 385-40, and this regulation" in "all suspected cases of friendly fire." The
paragraph also states that the investigating officer in a legal investigation is "usually appointed
by the general court-martial convening authority (GCMCA) [of the unit concerned], [and] will
conduct a timely and accurate [legal] investigation of the mishap." Further, the Regulation states
that the Director of Army Safety initiates a safety investigation concurrent with the legal
investigation, and, given the time sensitivity, safety, and readiness implications of the
investigation's findings, the safety investigation process "is given primacy in access to evidence,
witnesses, and the mishap scene."

        Chapter 3, "[Legal] Investigations," notes that DoDI 6055.7 requires each Service to
conduct both a safety and legal investigation into certain types of accidents, and that the
guidance for conducting legal investigations is explained in AR 385-40, AR 27-20 [Claims],
"and in the case of fatal training/operational accidents, this regulation."

         AR 735-5, "Policies and Procedures for Property Accountability," dated June 10,
2002

        The Regulation establishes Army policies and procedures for accounting for Army
property, to include property that is damaged or destroyed. Paragraph 14-19, "Destruction of
contaminated clothing and equipment," authorizes replacement of contaminated individual
clothing and an adjustment to property records for contaminated organizational clothing and
individual equipment destroyed by direction of medical authority. The destruction must be
documented in a memorandum signed by the unit commander which names the medical officer
who directed the destruction.


10 With regard to the appointment of single investigating officer versus a board of officers, we find AR 600-34

(which requires only a single investigating officer) to be controlling in this case rather than AR 600-8-1 (which
requires a board of officers). AR 600-34 specifically addresses legal investigations of friendly fire cases and was
published more recently than AR 600-8-1. Additionally, the most recent version of AR 600-8-1, dated April 7,
2006, gives the appointing authority the option of appointing either a single officer or a board of at least three
officers to inquire into the suspected friendly fire incident.



                                         FOR OFFICIAL USE ONLY
IP02007EOO1                                                                                           12


       Joint Publication 4-06, "Joint Tactics, Techniques, and Procedures for Mortuary
Affairs in Joint Operations," dated August 28,1996

        Appendix B, Subparagraph 4.a, "Personal Effects on Remains," states that when the
remains of deceased personnel arrive at the unit marshalling area, staff should check the remains
for personal effects and organizational equipment. The paragraph further directs,

               Remove serviceable organizational and government equipment from
               the remains and return serviceable equipment to the appropriate
               supply activity. Unserviceable equipment and all clothing are left on
               the remains.

      USASOC Regulation 385-1, "Safety - Accident Prevention and Reporting," dated
March 1,2000

        The Regulation applies to USASOC subordinate commands, to include the 75th Ranger
Regiment. Subparagraph 1-5.f charges commanders to ensure that the accident investigation and
reporting requirements of AR 385-40 and this regulation are accomplished. Similarly,
Paragraph 3-1 charges all USASOC units to comply with the requirements of AR 385-40 and
this regulation, and Paragraph 3-3 requires all Army accidents to be investigated and reported to
the immediate commander whose operation, personnel, or equipment is involved, and to the
USASOC Safety Office. Subparagraph 3-6.g requires major subordinate units to establish
procedures to ensure a unit experiencing an accident involving a fatality immediately notifies the
USASOC Emergency Operations Center.



          As a preliminary matter, to understand who was responsible to report and investigate
CPL Tillman's death, it is important to note that military forces are generally subject to multiple
chains of command and control, with the two principal ones being the operational chain of
command and the administrative chain of command. The operational chain of command
exercises operational control over assigned forces. Operational control normally provides full
authority to organize commands and forces and to employ those forces as the commander in
operational control considers necessary to accomplish assigned missions. It does not, in and of
itself, include authoritative direction for logistics or matters of administration, discipline, internal
organization, or unit training.

       The operational chain of command for CPL Tillman's unit -- 2nd Platoon, A Company,
2nd Battalion, 75th Ranger Regiment -- for the operation during which he was killed was

       1.   Headquarters, Operations Team
       2.   Headquarters, 75th Ranger Regiment (Forward)
       3.   Headquarters, Joint Task Force
       4.   CENTCOM

The first GCMCA in that operational chain of command was the Commander, CENTCOM.



                                   FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                     35


        <9   The Silver Star award was expeditiously processed to comply with standard
             regimental practice of presenting awards at the funeral or memorial service. The
             award was based on anecdotal information the Company Commander gathered from
             multiple soldiers who were at the scene and not based on the results of any
             investigation. In addressing the allegation that CPL Tillman's death was
             "embellished," BG Jones opined that CPL Tillman's "audacious plan" to assault
             enemy positions was "worthy of a Silver Star."

        On January 10, 2005, the USASOC Staff Judge Advocate conducted a legal review and
found that the investigation complied with legal requirements, that any errors in the investigation
were harmless, sufficient evidence supports the findings, and recommendations are consistent
with his findings. He recommended the report be approved and forwarded to the Army Inspector
General for review. Additional information requested by the Army Inspector General was
provided on March 9,2005.

        Discussion of BG Jones' Investigation

        We found that BG Jones' investigation accurately established the facts of CPL Tillman's
death -- that it was caused by friendly fire, that occupants of one vehicle in CPL Tillman's
platoon were responsible, and that circumstances on the ground at the time caused those
occupants to misidentify friendly forces as hostile. As had CPT _and L T C _
BG Jones determined that CPL Tillman's death was accidental, rather than deliberate or
intentional. Neither our review, nor the concurrent investigation by the Army CID found
evidence that would contradict those fundamental conclusions.

        Nevertheless our review ofBG Jones' investigation identified deficiencies in terms of the
level ofthorou~d by AR 15-6, as well as the failure to adequately address issues
raised by Mrs. _ a n d others. Those deficiencies contributed to lingering speculation
that Army officials were concealing relevant information concerning CPL Tillman's death. We
address deficiencies in BG Jones' investigation as follows:

        Resolution of issues concerning the incident itself. The Acting Secretary of the Army
appointed LTG Kensinger to conduct additional investigative work because of uncertainty
regarding the sequence of events that occurred on April 22, 2004 (as demonstrated, in part, by
the questions raised by Mrs. _ , and because of conflicts in testimony from knowledgeable




fire other than SSG
                   _s_s
witnesses, particularly Rang~ved in the incident. For example, the nature and extent of
hostile fire was not clearly established; reports of visibility at the time varied; some witnesses
indicated that SSG            vehicle stopped and occupants dismounted during the firing episode,
while other witnesses indicated that the vehicle proceeded without stopping; sources of friendly
                              vehicle were suggested since activities by occupants of other
vehicles in Serial 2 were not established.

        In our view, the requirements of AR 15-6 mandated that BG Jones pursue all
investigative leads and interview as many knowledgeable witnesses as possible in order to
establish, with greatest possible certainty, the precise nature of events on April 22, 2004. Doing




                                  FOR OFFICIAL USE ONLY
 IP02007EOO 1                                                                                          36


 so would hopefully capture any observations not previously obtained and avoid the implication
 that evidence to resolve issues in dispute was ignored. However, BG Jones interviewed only 26
 of the surviving 40 Rangers who rode in Serials 1 and 2. Witnesses not interviewed included:

            •     Seven Rangers in Serial 1 -- the vehicle convoy that preceded Serial 2 through the
                  canyon and proceeded past the village before stopping and hearing extensive gunfire
                  directed at Serial 2. A contingent of Rangers from Serial 1, including CPL Tillman,
                  dismounted and returned to the ridge overlooking the canyon exit to engage hostile
                  forces. All members of Serial 1 witnessed at least some aspect of the incident. Of
                  note, SPC                   was not interviewed, even though he had previously told
                  CPT         that a vehicle with a ".50 cal" stopped and the transport commander got
                  out and fired toward his (SPC _          s) position.

            lib   Six Rangers in Serial 2. One occupant ofSSG_s vehicle, SPC
                  was not interviewed by BG Jones (or by the previous two investigators). As
                  disparities continued to exist concerning actions by occupants of SSG_s
                  vehicle, all occupants should have been interviewed. A~ones did not
                  interview two snipers (SPC _ a n d SPC _                                   who
                  occupied the vehicle following S~or the driver of that vehicle
                  (PFC                        . Given the proximity of that vehicle to the incident,
                  coupled with the pattern ofCPL Tillman's wounds (3 forehead wounds within an
                  approximate 2-inch diameter), the possibility of sniper fire toward his position should
                  have been considered and all occupants of that vehicle interviewed. Finally,
                  BG Jones interviewed only one of the four occupants of the fourth vehicle in Serial 2,
                  who may have observed the occupants ofSSG_s vehicle during the incident or
                  overheard comments made immediately thereafter.

        Handling of physical evidence. As described in previous sections of this report,
CPL Tillman's uniform, body armor, and MOLLE vest were promptly removed and
subsequently destroyed in the days following his death. Other physical evidence from the scene,
including a .50 caliber round removed from a rock where CPL Tillman was located, was not
retained. 14 BG Jones noted that the failure to preserve this evidence contributed to perceptions
that "the Army was trying to hide that this was a fratricide."

        Concluding that "nothing could be further from the truth," BG Jones explained that the
destruction ofCPL Tillman's uniform and equipment occurred because: (1) CPL Tillman's
death had already been established as fratricide by Service members who performed the
destruction and who, therefore, saw no need to retain evidence; (2) the retained items were
permeated with blood and posed a biological hazard; and (3) retaining the physical evidence
"could have had a significant negative impact on the morale of CPL Tillman's unit." Without
reference to regulatory guidance, BG Jones recommended that, in future cases, all clothing and
equipment be retained and provided to appropriate medical or law enforcement activities.




14 A   .50 caliber round would have been fired by U.S. forces.


                                          FOR OFFICIAL USE ONLY
 IP02007EOO 1                                                                                       37


        In rendering these findings, BG Jones failed to acknowledge the following regulations or
 other guidance which required retention of this evidence:

         iii   AR 15-6 describes "real evidence" as physical objects and states that real evidence
               should be preserved, including "chain of custody, where appropriate, for use if further
               proceedings are necessary."

         iii   Joint Publication 4-06, "Joint Tactics, Techniques, and Procedures for Mortuary
               Affairs in Joint Operations," Appendix B, "Personnel Effects," dated August 28,
               1996, states, "Remove serviceable organizational and government equipment from
               the remains and return serviceable equipment to the appropriate supply activity.
               Unserviceable equipment and all clothing are left on the remains."

        iii    Memorandum of December 3, 2003, from the Under Secretary of Defense for
               Personnel Readiness to the Service Secretaries stating:

                  [T]he remains of all Service members who die in a theater of
                  combat operations will be placed in a human remains pouch with
                  minimum handling consistent with personnel safety. The remains
                  will then be sent to the AFME or the designated representative for
                  forensic examination before being released to the preparing
                  mortuary.


        iii    Army Field Manual 27-1, "Legal Guide for Commanders, Preservation of Physical
               Evidence," states,

                  You must preserve and safeguard in your custody any physical
                  evidence of an offense. . .. Physical evidence must be carefully
                  marked, to ensure later identification, and recorded on a chain of
                  custody document. (See AR 195-5.) The chain of custody
                  document, such as Department of the Army (DA) Form 4137, is a
                  record of everyone who has handled an item from when it was
                  originally identified as evidence until the trial. Physical evidence
                  should then be turned over to professional investigators as soon as
                  possible. Perishable and unstable evidence requires special
                  attention for preservation.

         In view of this guidance, BG Jones was in a position to render a finding that those
personnel involved violated regulations by removing and destroying CPL Tillman's clothing,
equipment, and other physical evidence. His recommendation that that clothing and equipment
be retained was unnecessary and incorrectly implied that no guidance on the topic existed when,
in fact, the guidance was clear. Finally, BG Jones inaccurately attributed the decision to destroy
CPL Tillman's clothing and equipment to 1SG_ However, as discussed in the previous
section of this report, 1SG_br~hysical evidence to the attention of CPT _                    as the
AR 15-6 investigating officer. CPT_ decided that he had no further need of the items.



                                     FOR OFFICIAL USE ONLY
 IP02007EOO 1                                                                                                      38


         Notification to family members at the time fratricide was suspected. BG Jones found no
 indication that commanders were reluctant to report the friendly fire nature of CPL Tillman's
 death. He attributed the failure to immediately tell the family to a desire to first gather all
 available facts in order to avoid providing inaccurate information. However, as detailed in the
 following section of this report, we concluded that the failure to so inform the family was
 inconsistent with DoD and Army regulations and contributed significantly to the distrust that the
 Tillman family continues to hold against the Army. Curiously, BG Jones' recommendation that
 commanders be allowed to provide such notification "as soon as deemed reasonable," does
 nothing to resolve the situation that he found here. In this case, none of the commanders
 "deemed reasonable" immediate notification to family members.

         LTG Kensinger's role in the failure to notify family members. Not only did BG Jones
fail to fully address the next of kin notification issue, but, more significantly, he failed to address
misrepresentations on the part of LTG Kensinger in the matter. In that regard, LTG Kensinger
told BG Jones that he was first alerted to the possibility of fratricide by COL
Deputy Commander, 75th Regiment, on the night before the memorial service and, based on that
informal notification, did not consider it appropriate to advise the family. Although BG Jones
obtained some evidence that LTG Kensinger may have learned of suspected fratricide several
days before the memorial service, he failed to pursue appropriate investigative leads and
ultimately accepted LTG Kensinger's testimony as accurate.

        One key factor in establishing LTG Kensinger's knowledge of fratricide was a P4
message, sent by MG McChrystal on April 29, 2004, to Commanders, CENTCOM, SOCOM,
and USASOC, telling them that an ongoing investigation "will find that it is highly possible" that
CPL Tillman was "killed by friendly fire." In his testimony to BG Jones, LTG Kensinger
recalled that he was not given the P4 message when it arrived at USASOC, but first learned of it
on May 4, 2004, after re~ to headquarters and following up on the informal notification he
had received from COL_

        However, during BG Jones' investigation, Chief Warrant Officer Three (CW3) _
_          Special Programs Division, USASOC, testified that he placed a copy of the P4
message in LTG Kensinger's briefing book, which he believed LTG Kensinger would have
reviewed prior to departing for the memorial service. IS BG Jones did not pursue the matter.
That is, he did not question other witnesses on the USASOC staff to determine whether
LTG Kensinger actually reviewed the briefing book prior to his departure or otherwise learned of
the suspected friendly fire from staff members before departing for the memorial service. When
we questioned BG Jones on the matter, he testified:

                  Well, if GEN Kensinger told me that he did not review it until the
                  4th [of May]; I believe what GEN Kensinger told me .... I don't
                  think his [CW3 _ s ] statement says that he personally was




15 Since completion ofBG Jones' investigation now required him to examine the conduct of LTG Kensinger (a
person senior to him and also the appointing authority for the investigation), BG Jones was obliged to bring the
matter to the attention of Army leaders at a level of command above LTG Kensinger.


                                        FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                     39


                there to see GEN Kensinger read it. . " [CW3 _             does not
                say he was in the room ... didn't say that he stands there and
                watches him read these documents, so I don't know that.

        We found compelling evidence that LTG Kensinger learned of suspected fratricide well
before the memorial service and provided misleading testimony to both BG Jones and to our
investigators on that issue. In addition to the possible offense under Article 107, Uniform Code
of Military Justice, "False official statements," this is a serious matter because USASOC, which
LTG Kensinger commanded at the time, was responsible under Army regulations for notifying
family members when new information was available concerning a Service member death.
Evidence that LTG Kensinger knew of the suspected fratricide before he departed for the
memorial service and misrepresented his knowledge in that regard follows:

        •   According to his calendar, LTG Kensinger was at USASOC from April 30 through
            May 3, 2004, when he departed for the memorial service in San Jose, California,
            which presumably would have put him in regular contact with his staff.

        •   LTC                , Chief, Special Programs Division, USASOC, told us that he
            personally delivered the P4 message to LTG Kensinger on the morning of April 30,
            2004, (a Friday). LTC.recalled that, after reading the message, LTG Kensinger
            stated that he wished they had not told him that (or words to that effect), and warned
            LTC ~o safeguard the information against leaks.

        •   COL_ s testimony directly conflicted with LTG Kensinger's recollection that he
            [LTG Kensinger] first learned friendly fire was suspected in CPL Tillman's death
            from COL.on the night before the memorial service. Rather, COL_
            stated that he was unaware of possible fratricide until after the memorial service when
            LTG Kensinger told him that an investigation into the matter had been initiated.
            COL Nixon (COL.s superior) told us he "limited the number of people that
            were involved" and did not advise COL_of the investigation before COL_
            departed for the memorial service.

        •   BG Yellen, then Deputy Commander, USASOC, testified that COL Nixon advised
            him of CPL Tillman's death on April 23, 2004, and the initiation of an investigation
            into friendly fire about 24 hours later. BG Yellen stated that he informed
            LTG Kensinger about the initiation of an investigation the same day that he learned of
            it from COL Nixon.

        During his initial testimony to us, LTG Kensinger reiterated his recollection that he first
learned of suspected fratricide from COL_ the night before the memorial service and
first became aware of the P4 message on returning to USASOC. When we confronted
LTG Kensinger with the foregoing evidence, he maintained that his testimony to BG Jones
reflected his recollection at the time. However, he acknowledged that his recollection could have
been inaccurate, indicating he did not doubt the truthfulness of the people we interviewed.




                                  FOR OFFICIAL USE ONLY
 IP02007EOO 1                                                                                                       40


         We found LTG Kensinger's explanation unpersuasive and concluded that he
 misrepresented his knowledge on the matter. Further, as discussed in Section IV.B. of this
 report, he and COL Nixon are accountable for the failure to properly update the Tillman family
 when an investigation was initiated into CPL Tillman's death.

         Alleged embellishment of the Silver Star. As set forth in Section IV.C. of this report, the
 documentation submitted to obtain approval of the Silver Star contained materially inaccurate
 stateme~BG Jones had the opportunity to correct the record given concerns raised
 by M r s . _ he took no action to do so. Of significance, he interviewed the two
 Rangers whose valorous witness statements were attached to award justification, but he did not
 question them regarding the genesis or accuracy of their statements. (In their testimony to us, the
 two Rangers did not recall writing or signing those statements.) Rather, BG Jones accepted the
 Silver Star documentation as reasonably representative of the events attending the death of
 CPL Tillman and focused on CPL Tillman's "audacious plan" to engage the enemy as deserving
 of a Silver Star.

        In that regard, Army regulations Frovide that an award is based on a Service member's
achievements, not his or her intentions.' Moreover, BG Jones' conclusion that CPL Tillman's
plan to engage the enemy was in the "minds" ofCPL Tillman's commanders when they
recommended a Silver Star was inconsistent with the testimony provided by those commanders.
That testimony indicated they believed CPL Tillman's actions prior to death justified the Silver
Star, apart from any plan he may have had to engage the enemy. Further, BG Jones disregarded
testimony indicating that SSG_disapproved CPL Tillman's plan to assault enemy
locations. Significantly, BG Jones shared those findings regarding the Silver Star with family
members, senior Army officials, and Members of Congress during official briefings.

       B. Did responsible officials comply with applicable standards for notification of next of
kin with regard to CPL Tillman's death and related investigations?

        Responsible officials violated DoD policy and Army regulations by failing to notify the
primary next of kin as soon as they reasonably suspected friendly fire. We found the regimental
commander accountable for the decision to delay notification until the completion of a friendly
fire death investigation. We also found the Commander, USASOC, as the commander with
administrative control over the 75th Ranger Regiment, accountable for this failure.

Standards

      DoD Instruction 1300.18, "Military Personnel Casualty Matters, Policies, and
Procedures," dated December 12, 2000

        This Instruction provides guidance to the Military Services for notifying the next of kin
of a military member's death. DoD policy is that next of kin "shall be notified as promptly as
possible in a dignified, humane, professional, empathic, and understanding manner,"

16 The governing Army regulation provides that a Silver Star award requires demonstration of "gallantry in action
against an enemy of the United States while engaged in military operations involving conflict with an opposing
foreign force."


                                        FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                            41


 (Paragraph 4.1). The notification to next of kin will include "[a]ll facts and circumstances on the
 casualty incident known at the time ... ," (Subparagraph 6.1.1.2.). As "additional information
 becomes available, the Military Service concerned shall inform the NOK [next of kin] ... ,"
 (Subparagraph 6.1.2.4).

       AR 600-8-1, "Personal Affairs, Army Casualty Operations/Assistance/Insurance,"
 dated October 20, 1994

         This Regulation sets forth Army procedures for notifying next of kin in a timely manner
of a Service member's death. During hostilities, this Regulation requires that the unit report the
cause and circumstances of the death, and specify the "inflicting force" causing the death. Units
are to submit reports to the battalion level "without delay or as the battlefield situation permits,"
(Subparagraph 1-15.i). That information is then transmitted to the Department of the Army level
"Casualty Operations Center within 24 hours from the time of the incident," (Subparagraph 1-
15.i), and the Casualty Operations Center uses the information on the cause and circumstances of
the death to ensure that the next of kin are provided accurate information about their family
member's death.

         If friendly fire is suspected, but not yet confirmed, the "inflicting force" that caused the
death will be listed as "UNK" for unknown, (Subparagraph 2-12.d). When the required
investigation into the death is completed, and the "inflicting force" is determined, a
"supplemental casualty report" will be generated that removes "UNK" and identifies the
inflicting force, (Subparagraph 2-12.d).

        Army representatives making initial notification to next of kin are instructed to provide
information in a prepared format depending on the cause of death. For suspected friendly fire
death cases, the "casualty notifier" is to tell the next of kin that the soldier's "death is a result of
suspected friendly fire. A formal investigation is being conducted. You will be further advised
as additional information is received ... ," (Subparagraph 4-13.a(4)(b)).

       AR 600-34, "Fatal Training/Operational Accident Presentations to the Next of Kin,"
dated January 2, 2003

        This Regulation implements the duties imposed by Congress in Public Law 102-484, the
National Defense Authorization Act for Fiscal Year 1993, as well as the requirements of
DoDI 1300.18, above, (Paragraph 1-1). Congress and DoD directed that bereaved families be
kept informed as additional information about the cause of death becomes known.

        This Regulation requires that "within a reasonable period of time after family members
are notified of the death of a soldier, but not more than 30 days after the date of the notification,
the ... CAO [Casualty Assistance Officer] ... will ensure that the PNOK [primary next of kin]
and other family members designated by the PNOK" are informed of the "investigations, the
names of the agencies conducting the investigations, and the existence of any reports by such
agencies that have been or will be issued as a result of the investigations," (Subparagraph 3-7.a).




                                    FOR OFFICIAL USE ONLY
IP02007EOO1                                                                                       42


         Subparagraph 1-IS.b provides that "Releasable information will be provided to the
primary next of kin, and other family members designated by the primary next of kin, through
periodic updates while the collateral investigation [i.e., the AR 15-6 investigation] is
ongoing ...." Subparagraph 4-2.e provides that the updates to next of kin "will include
information concerning the progress of the investigation, but will not include any information
relative to the results of the investigation." The information released to the primary next of kin is
prepared by the Public Affairs Office (PAO) at "the direction of the appointing/approving
authority," in what are called "scripts" or the approved language for release. Once prepared, the
"script will be given to the Human Resources Command (HRC) [Casualty and] Memorial Affairs
Operations Center (CMAOC) who will instruct the CAO on its delivery to the PNOK."

        Once the investigation into cause of death is completed, this Regulation requires "a
standard process for presenting the results" of an investigation to the primary next of kin "in a
timely, equitable, and professional manner," (Subparagraph 1-17.a(1)). The presentation, for any
"suspected cases of friendly fire" is to be "delivered to the PNOK, and other family members
designated by the PNOK, before results is released to Congress, the media, or the public,"
(Subparagraph 1-IS.b). This presentation is to be delivered in person. The Army requires that
the presentation team include a briefer, the family's Casualty Affairs Officer, and a chaplain,
(paragraph 2-3.a). The briefer is the "appropriate brigade-level commander in the grade of
colonel (or higher)," (Subparagraph 4-2.a(2)).



         CPL Patrick Tillman died at approximately 6:45 p.m. local Afghanistan time, on
April 22, 2004. PFC _            who was near CPL Tillman when he died, informed the company
first sergeant the night of the incident that he and CPL Tillman were fired on by a Serial 2

                       LTC.
vehicle. The first sergeant informed the company commander and they in turn informed the
battalion commander,
scene of the incident. LTC
                                      at about 10:00 a.m. on April 23, 2004, when he arrived at the
                                     ordered an investigation of the incident in the afternoon of
April 23, 2004.

        Medical personnel at the Forward Surgical Team facility at the battalion FOB received
CPL Tillman's body when it arrived by helicopter about 90 minutes after the incident. The
battalion personnel noncommissioned officer (NCO) sent a notice of CPL Tillman's death to the
Joint Task Force, the headquarters with operational control of combat operations involving the
75th Ranger Regiment. This casualty message was based on the report from the Forward
Surgical Team personnel that listed CPL Tillman as killed in action.

        The Joint Task Force Chief of Staff approved transmission of the casualty report of
CPL Tillman's death at about 10:30 p.m. local time, April 22, 2004. This report listed the cause
of death, or the "inflicting force," as "enemy forces." The Joint Task Force casualty report for
CPL Tillman was sent to USASOC at Fort Bragg, North Carolina, which forwarded it to the
Army Human Resources Command CMAOC, which then generated the "initial casualty report."




                                  FOR OFFICIAL USE ONLY
 IP02007EOO 1                                                                                                        43


         The CMAOC initial casualty report was sent to the regional Casualty Assistance
 Command at Fort Lewis, Washington, the home station ofCPL Tillman's 2nd Battalion,
 75th Ranger Regiment. The Fort Lewis Casualty Assistance Command assigned Army
 notification teams to provide notification ofCPL Tillman's death (that is, "killed in action by
 enemy fire") to his widow, the primary next of kin, and to his parents, the secondary next of kin.
 These notifications were completed by early evening Pacific Daylight Time, April 22, 2004.

         The regimental commander, COL Nixon, testified that when he learned from the battalion
 commander that friendly fire was suspected, he limited the number of Rangers within the
 regiment who knew that an investigation of friendly fire had been initiated. COL Nixon testified
 that he "compartmented" the information flow to prevent outside communication, because he
 believed he owed the Tillman family "our best view of what had occurred on the ground in a
 very complicated situation ... and to get it to the family before it leaked to the press or came
 through some other route." COL Nixon testified that this "meant that the people that needed to
 know, whether it was in A Company, 2nd Ranger Battalion, the Ranger Regiment, or the Joint
 Task Force, were the people [who] continue[d] to be informed throughout."

         The battalion and regimental personnel NCOs testified that they were not among the
Rangers informed of the friendly fire investigation. The regimental personnel NCO testified that
he was trained to file a supplemental casualty report changing the inflicting force from "enemy
forces" to "UNK" or unknown in the case of suspected friendly fire. Because the personnel
NCOs at the battalion, regiment, and Joint Task Force levels of command, were unaware that
friendly fire was suspected, they did not file a supplemental casualty report to change the
inflicting force from "enemy forces" to "UNK.,,17 As a result, the CMAOC was unaware of
suspected friendly fire and did not alert the regional Casualty Assistance Command to notify
CPL Tillman's widow or parents, as it was their practice to do upon receipt of a supplemental
casualty report listing "UNK."

        On April 29, 2004, MG McChrystal sent a P4 message to the Commanders, CENTCOM,
SOCOM, and USASOC, telling them that a friendly fire investigation "will find that it is highly
possible" that CPL Tillman was "killed by friendly fire." MG McChrystal testified that he sent
this message for two reasons: (1) to alert his higher chain of command that friendly fire was
suspected; and (2) to reinforce his view that the probable fratricide did not detract from the Silver
Star nomination he had sent forward on April 28, 2004, based on CPL Tillman's valor in the face
of the enemy.

        MG McChrystal stated, and the text of the P4 message confirmed, that his alert to his
higher chain of command was also to allow the receiving commanders to warn the Acting
Secretary of the Army and the President of the United States about comments they might make
in speeches to preclude embarrassment if the public found out friendly fire was involved.
MG McChrystal further testified that he assumed the T~ad been notified of the
investigation into suspected friendly fire because SPC~served in his brother's
platoon and accompanied CPL Tillman's remains to the United States.

17 Personnel at USASOC filed a supplemental casualty report on June 3, 2004, that changed "enemy forces" to
"UNK," but at this point, the Army already had disclosed the results of the regimental AR 15-6 investigation which
identified the inflicting force as "friendly."


                                        FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                                     44


          The Commander, SOCOM, replied to the P4 message agreeing that the finding of
 friendly fire in no way detracted from CPL Tillman's valor. The Commander, CENTCOM,
 testified that he did not receive the P4 message until 10 to 20 days after it was sent because of his
 travel within the CENTCOM area of operations. In sworn testimony, LTG Kensinger,
 Commander, USASOC, stated he did not believe he reviewed the P4 message until around
 May 4,2004, when he returned from representing the Army at CPL Tillman's May 3, 2004,
 memorial service in San Jose, California. LTG Kensinger told BG Jones that he first learned of
 the possibility of fratricide on May 3, 2004, when he was informed by the Deputy Commander of
 the 75th Ranger Regiment at the memorial service.

         Based on our investigation, and additional interviews, we determined that
 LTG Kensinger actually reviewed MG McChrystal's April 29, 2004, P4 message on April 30,
 2004,3 days before he departed for the memorial service. We also determined that
 LTG Kensinger's deputy commander informed him on approximately April 25, 2004, that
 friendly fire was suspected, after receiving notice from COL Nixon. I 8

        Regardless of whether LTG Kensinger first learned of suspected friendly fire on April 25,
2004, from his deputy commander, or on April 30, 2004, when he reviewed the P4 message of
MG McChrystal, LTG Kensinger testified that he made a conscious decision not to inform the
Tillman family on May 3, 2004. LTG Kensinger testified that he decided not to tell the Tillman
family because friendly fire had not yet been confirmed, the AR 15-6 investigation was not yet
completed, and it was just "not the right time" to do so.

        COL Nixon approved the regimental AR 15-6 investigation on May 17,2004, and
forwarded it to MG McChrystal, who concurred with the results and submitted the report to
CENTCOM. On May 28, 2004, by delegation of authority from the CENTCOM commander,
MajGen Sattler, the Director of Operations, approved the regimental AR 15-6 investigation. The
75th Ranger Regiment did not complete a supplemental casualty report to identify the "inflicting
force" as friendly fire, in accordance with AR 600-8-1.

         The regiment provided personal notification to CPL Tillman's widow, the primary next
of kin, after the 2nd Battalion, 75th Ranger Regiment returned to Fort Lewis from Afghanistan.
L T C _ CPL Tillman's battalion commander, personally briefed SPC                          on the
night of May 26, 2004, and then, accompanied by SPC _            he provided a detailed
explanation of the facts and circumstances ofCPL Tillman's death to his widow on May 27,
2004. LTC _then flew to California, where he provided a similar detailed notification and
explanation to CPL Tillman's parents on May 29,2004. LTC_s notification of suspected
friendly fire to primary and secondary next of kin, occurred 35 and 37 days respectively, after the
initial casualty notification.




18 LTG Kensinger's prior knowledge of suspected friendly fire, and prior review of the P4 message, indicate that he
misled BG Jones and our investigators when he provided his sworn testimony. We discuss LTG Kensinger's
misrepresentations in Section IV.A. of this report.


                                       FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                         45


        On June 16,2004, COL Nixon, accompanied by LTC_ provided the primary and
secondary next of kin a formal presentation of the CENTCOM approved AR 15-6 investigation
results. That presentation was coordinated in advance with CMAOC and with BG Gina Farrisee,
Commander, Army Human Resources Command, in accordance with AR 600-34, paragraphs
1-18.c and 2-1. COL Nixon's formal presentation included briefing slides summarizing the
findings and conclusions of the regimental investigation, as well as pictures taken at the site of
the incident, and maps detailing the routes of the two serials.

        We interviewed CPL Tillman's entire chain of command, including the company,
battalion and regimental commanders, the Joint Task Force commander, and the Commander,
USASOC, LTG Kensinger. Each commander testified that he was unaware of the supplemental
casualty report requirements of AR 600-8-1. Each commander also testified that he was unaware
of the DoD and Army requirement to notify family members of suspected fratricide and of any
ongoing investigation within a reasonable period of time, not to exceed 30 days of the initial
notification of death.

        In his investigation, BG Jones found that the chain of command's failure to inform the
family was based on "a desire to obtain all the facts prior to telling the family it was a fratricide,
as well as a perception that there was some regulatory prohibition against telling the family until
the conclusion of the collateral investigation." BG Jones later modified the second part of his
finding, concluding that "no one in the chain of command specifically relied on any regulation to
say they either could or could not release to the family that this was a suspected fratricide."

         BG Jones also concluded that there was ambiguity in Army regulations and that where a
 command learns of suspected friendly fire after the initial next of kin notification, the command
 could interpret regulations to prohibit notification of next of kin until completion of the AR 15-6
 investigation. BG Jones reached this conclusion by reviewing and comparing AR 600-8-1 and
AR 600-34. BG Jones first noted that AR 600-8-1 provided only one approved statement for
notification to next of kin of a death by friendly fire. The approved statement presumed that
friendly fire was suspected at the outset. AR 600-8-1 did not contain an alternative approved
statement for use in notifying next of kin of suspected friendly fire after initial notification.
BG Jones combined the absence of an alternative notification statement in AR 600-8-1, with the
presence of two paragraphs in AR 600-34 that he believed justified delaying release of an
AR 15-6 investigation. One paragraph addressed delaying release of the AR 15-6 investigation
if the release "will interfere with other ongoing investigations," and the other paragraph provided
that next of kin are to be told the status of an ongoing investigation but not its results.

         To remedy this perceived ambiguity, BG Jones recommended new language for both
regulations "to provide the deceased soldier's commander the flexibility to tell the family of the
potential for fratricide, as early as deemed reasonable." BG Jones' recommended language
stated, "Nothing ... shall be interpreted to restrict a commander's ability to inform a deceased
soldier's next of kin ... as soon as deemed reasonable by the commander."

        LTG Stanley Green, the Army Inspector General, reviewed BG Jones' initial AR 15-6
investigation and requested additional investigation, to include more information concerning
notification of next of kin in CPL Tillman's death. One ofBG Jones' additional findings was



                                  FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                                         46


 that CPL Tillman's chain of command was unaware of the need to file a supplemental casualty
 report where friendly fire is suspected. BG Jones briefed the results of his initial and
 supplemental AR 15-6 investigation to Dr. Francis 1. Harvey, then Secretary of the Army, on
 March 23,2005, to include his findings and conclusions concerning next of kin notification.

        Based on BG Jones's briefing, Secretary Harvey directed LTG Green to conduct a
top-to-bottom review of the Army's Casualty Reporting System. In June 2005, LTG Green
submitted his results and made two recommendations directly relevant to this issue.i" The new
AR 600-8-1, "Army Casualty Program," published on April 7, 2006, implements most of the
recommendations made by LTG Green, and better clarifies a unit's responsibilities in regard to
notifying next of kin in suspected friendly fire incidents.

Discussion

         Initial Notification

        Army policy requires units to report all casualties to the battalion level commander
without delay (AR 600-8-1, Subparagraph 1-15.i (20 Oct 1994)). Each higher level of command
is to expedite the processing of casualty reports so that they can be submitted to the Department
of the Army level CMAOC within 24 hours.

       The regiment's initial casualty message was based on the report from the Forward
Surgical Team at the battalion FOB, where CPL Tillman's remains had been transported by
medical evacuation helicopter. That report listed CPL Tillman as killed in action. The Joint
Task Force used that information to notify USASOC which used that information to notify the
CMAOC. At the time the CMAOC was notified, no commander in CPL Tillman's chain of
command suspected friendly fire. That suspicion arose the next day when P F C _ s
observations reached the company commander.

        We concluded that CPL Tillman's chain of command completed the initial notification of
death, in accordance with Army policy and regulation, providing information they believed to be
accurate at that time. Based on that information, the primary and secondary next of kin were
notified that CPL Tillman had been killed in action by enemy forces.

         Failure to Notify Next of Kin of Suspected Fratricide

         AR 600-8-1, paragraph 2-34, requires that a supplemental casualty report be filed
whenever additional information or corrected information is known by the unit. In particular,
although AR 600-8-1, paragraph 2-12.d (covering reporting of friendly fire casualties), does not
specifically address filing a supplemental casualty report, it does require a unit to list the
"inflicting force" as "UNK" instead of "enemy forces" when friendly fire is suspected. Such a
change constitutes "additional language" correcting the initial casualty report.

19 On June 28,2005, Secretary Harvey approved LTG Green's recommendations that AR 600-8-1 be revised to
include a separate chapter or paragraph outlining actions taken when friendly fire incidents occur and a statement
referencing AR 600-34, "Fatal Training/Operational Accident Presentations to the Next of Kin," Section 3,
paragraph 1-18.


                                        FOR OFFICIAL USE ONLY
IP02007EOO1                                                                                    47


        COL Nixon failed to comply with the requirements of AR 600-8-1 in not ensuring that a
supplemental casualty report was filed as soon as he suspected friendly fire. Although
COL Nixon would not be expected to complete the supplemental casualty report himself, or to
specifically direct its completion, as the commander, COL Nixon is accountable for the proper
functioning of his personnel office. More particularly, he is accountable because his decision to
limit the Rangers with knowledge of the friendly fire investigation deprived his personnel NCOs
of information directly relevant to their duties.

         The regiment personnel NCOs were trained to file supplemental casualty reports for any
additional or correcting information. In particular, the regiment personnel NCO was trained to
file a supplemental casualty report changing the inflicting force from "enemy forces" to "UNK"
once informed that friendly fire was suspected. If the 75th Ranger Regiment filed a
supplemental casualty report listing the inflicting force as "UNK," the CMAOC would have
directed the Fort Lewis Casualty Assistance Command to notify CPL Tillman's widow and
parents that friendly fire was suspected and was under investigation.

        COL Nixon's decision to limit access was not, in itself, an improper decision. Matters
under investigation are routinely limited to those with a "need to know." If COL Nixon had
informed his regiment personnel NCO, he would have filed the supplemental casualty report
under AR 600-8-1, and CPL Tillman's widow and family would have been notified of suspected
friendly fire and that an investigation was under way. CPL Tillman's next of kin, however,
would not have been given the details surrounding his death until the investigation was complete.
Neither AR 600-80-1 nor AR 600-34, required the Casualty Affairs Officer or the chain of
command to provide the specific details, or to answer questions about the incident, until the
investigation report was complete and approved and a formal presentation was made.
COL Nixon testified that he limited access so that he could ensure that CPL Tillman's family
was informed by the command after an official investigation, and not from an unauthorized and
incomplete release of information from another source. COL Nixon's adherence to Army
regulations, however, would not have been inconsistent with his intent to avoid unauthorized
disclosures.

       As the commander, COL Nixon is accountable for his command's untimely notification.
However, we find insufficient basis to conclude that COL Nixon delayed next of kin notification
of suspected friendly fire for an inappropriate motive. We reached this determination after
examining COL Nixon's actions upon receiving notice from LTC_:

       !II   he immediately agreed to the initial appointment of an investigating officer;

       !II   he informed his higher commanders, MG McChrystal and BG Yellen, that he
             suspected friendly fire, within 2 days of CPL Tillman's death;

       1Il   he appointed his own investigating officer when he was not satisfied with the
             thoroughness of the battalion investigation;




                                   FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                     48


        @l   he drafted language for MG McChrystal's P4 message that alerted the commanders of
             SOCOM and CENTCOM, and LTG Kensinger, that it was "highly possible" an
             investigation would find that CPL Tillman died by friendly fire;

        @l   he submitted the regimental investigation that found CPL Tillman was killed by
             friendly fire through MG McChrystal to the Commander, CENTCOM, for approval;
             and

        @l   he had LTC_personally explain to SPC _ , CPL Tillman's widow, and
             CPL Tillman's parents, the results of the regimental investigation after he had
             approved it, but while it was awaiting approval at CENTCOM.

         LTG Kensinger is also accountable for the failure to notify the family. As the USASOC
 commander, with administrative control of the 75th Ranger Regiment, LTG Kensinger was
responsible for the initial notification of the primary and secondary next of kin. As the
administrative control commander, he also was responsible for all necessary supplemental
casualty reports, including the required supplemental casualty report for suspected friendly fire.
The obligation of USA SOC to file a supplemental casualty report arose as early as April 25,
2004, when we determined by a preponderance of the evidence, that LTG Kensinger's deputy
commander informed him of suspected friendly fire. Certainly by April 30, 2004, when we
determined LTG Kensinger read MG McChrystal's P4 message, LTG Kensinger had an
obligation to inform the family. Like COL Nixon, LTG Kensinger consciously chose not to tell
the Tillman family. Unlike COL Nixon or LTC _              who were still engaged in combat
operations in Afghanistan, LTG Kensinger was in a position not just to initiate notification by the
family CAO; LTG Kensinger personally could have informed the family before or immediately
after the memorial ceremony.

       We recommend that the Acting Secretary of the Army review the decisions of
COL Nixon and LTG Kensinger to not inform the Tillman family of suspected friendly fire in
accordance with Army regulations, and take action he deems appropriate.

       We have determined that the Army has taken corrective action to address the issue of
timely notification of next of kin in friendly fire deaths, both by regulatory changes, and by
mandating casualty notification training for commanders at all levels.

        C. Did responsible officials comply with applicable standards for award of the Silver
Star to CPL Tillman?

       Responsible officials failed to comply with the Army military award regulation when
they submitted a Silver Star recommendation that included inaccurate information and a
misleading citation that implied CPL Tillman died by enemy fire. This failure materially
contributed to the Tillman family distrust of Army representations concerning the death of
CPL Tillman.




                                 FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                                 49


 Standards

       DoD Manual 1348.33-M, "Manual of Military Decorations and Awards," dated
 September 1996

        This Manual sets out DoD standards for the award of DoD military decorations. It also
sets out the procedures for recommending and approving DoD military decorations. At
Appendix 1, Paragraph AP1.2.12., the Manual sets out the criteria for the award of the Silver
Star for Army personnel, in accordance with Title 10, United States Code, Section 8746. The
Silver Star may be awarded to "any individual. .. who distinguishes himself ... by gallantry in
action ... [a]gainst an enemy of the United States ... ," (Subparagraphs AP1.2.12.2.2. and
AP1.2.12.2.2.1 ).

         AR 600-8-22, "Military Awards," dated February 25,1995 20

        This Regulation establishes the award criteria for Army military decorations and sets out
the procedures for recommending, processing, and approving decorations. Army policy for all
military decorations is that "the decision to award an individual a decoration and the decision as
to which award is appropriate are ... subjective decisions made by the commander having award
approval authority," (Subparagraph 3-1.c).

        The Army criteria for award of the Silver Star is, "a person who, while serving in any
capacity with the U.S. Army, is cited for gallantry in action against an enemy of the
United States while engaged in military operations involving conflict with an opposing foreign
force ... ," (Subparagraph 3-9.b). The regulation provides some definition of the required level
of gallantry by contrasting it with award of the Distinguished Service Cross: "while of a lesser
degree than that required for the Distinguished Service Cross, must nevertheless have been
performed with marked distinction."

         DA Form 638 is used to "initiate, process, and approve award recommendations ... to
include valor and heroism decorations," (Subparagraph 3-18.a). A properly prepared award
recommendation will include: (1) DA Form 638; (2) a narrative justification; (3) the proposed
citation; (4) support documents (optional); and (5) eyewitness statements in the form of
certificates, affidavits, or sworn statements, (optional for the Silver Star and lesser awards),
(Subparagraph 3-18.u).

         The required narrative for a valor award "must contain a description of the following
elements: terrain and weather ... ; enemy conditions, to include morale, proximity, firepower,
casualties and situation prior to, during and after the act; the effect of the act on the enemy; the
action of comrades in the immediate vicinity of the act and the degree of their participation in the
act; ... the degree to which the act was voluntary; the degree to which the act was outstanding
and exceeded what was normally expected of the individual; all unusual circumstances; and
overall effects or results of the act," (Subparagraph 3-18.r).


20 A revision of AR 600-8-22 was issued on December 11,2006. The 1995 version was in effect at the time of
CPL Tillman's posthumous Silver Star award.


                                      FOR OFFICIAL USE ONLY
 IP02007EOO 1                                                                                      50


 Facts

        Our review disclosed the award citation, narrative justification, and two valorous award
witness statements submitted in support of the award contained inaccurate information. Further,
the narrative justification and the citation implied that CPL Tillman died by enemy fire. The
following factual summary explains how the award recommendation was drafted and processed
to the Acting Secretary of the Army, the approval authority. At the time he approved the award,
the Acting Secretary was unaware that friendly fire was suspected in CPL Tillman's death.

        At about 6:45 p.~an local time, on April 22, 2004, CPL Tillman died of
gunshot wounds. MAJ _                 Operations Officer, 2nd Battalion, testified that he was at
the battalion FOB when CPL Tillman's body arrived by medical evacuation helicopter at about
8:10 p.m. that night. MAJ_stated that he went to the Forward Surgical Team facility
where he placed an American flag on CPL Tillman's body, and spoke to SPC
once he arrived at the battalion FOB. MAJ_also spoke that night with 1 L T _
CPL Tillman's platoon leader, who had been wounded and was being treated at the Forward
Surgical Team facility. MAJ_spoke to 1 L T _ about an enemy ambush that occurred
before CPL Tillman died, about 1 L T _ s wounds, and about CPL Tillman's death.

         CPL Tillman's company commander, CPT                             testified that he believed
he ~ on an award recommendation for a Bronze Star Medal with V device for valor.
CPT_testified that he completed a draft citation, some portion of the required narrative
justification, and a draft DA Form 638, Recommendation for Award. CPT_submitted
his drafts electronically to the battalion within a few days of the incident after speaking with
Rangers from the platoon, reviewing statements that they wrote, and attending an After Action
Review. He further testified that within this time frame, LTC_ CPL Tillman's battalion
command~ed to ask if he could support a Silver Star award recommendation and, when he
told LTC_that he could, LTc_adVised him that ~would complete the
Silver Star recommendation. MAJ               testified that LTC _tasked him to prepare a
posthumous Silver Star award recommendation.

         CPT_testified that by the morning of April 23, 2004, he knew that friendly fire
was suspected in CPL Tillman's death and he reported that information to LTC_by
 10:00 a.m. that morning. Despite that knowledge, CPT_believed that CPL Tillman's
actions before his death on April 22, 2004, coupled with the sacrifice of his life defending his
fellow Rangers, merited the Silver Star. In our interview, CPT_conceded there were
inaccuracies in the narrative justification that he assisted MAJ~ith, and in the final
citation that supported the Silver Star, but he noted that his contribution to the narrative
justification was completed within just a few days ofCPL Tillman's death with information that
he believed was accurate at that time.

        In his sworn testimony to BG Jones on November 16,2004, MAJ_testified that
CPT _           gave him a draft narrative and citation for a Bronze Star Medal and provided
information he had gained from interviews ofCPL Tillman's platoon members. MAJ_
said he believed that he and C P T _ began a draft on the evening CPL Tillman died.




                                  FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                            51


 Later that evening, MAl_sent C P T _ t o the scene ofCPL Tillman's death to
 collect more information. At the time that CPT _departed, neither he nor MA~



               T_
 knew that friendly fire was suspected. MAl_composed his first draft with C P T _
 and 1 L T _ s input.

          1L           believed for about 10 days that enemy fire, rather than friendly fire, had
 caused his wounds. While at the Forward Surgical Team facility the night of the incident,
  1LT_told MAl_about the incoming fire that wounded him and discussed
 CPL Tillman's actions before his death. 1LT_told MAl _ t h a t CPL Tillman
 assaulted to the north, then turned around and fired on the southern ridgeline because he was
 receiving fire. MAl _         testified that he did not realize at the time he drafted the narrative



 informed him that he suspected friendly fire. MAl
                                                             .on
 justification that 1LT _ h a d not been in a position to see what CPL Tillman had done.

         MAl_testified that he spoke to LTC                    April 23, 2004 and LTC_
                                                             discounted L T C . s initial
suspicion because he had spoken to 1LT_who firmly believed that enemy fire caused
CPL Tillman's death. On April 25, 2004, MAl _testified he attended an emotional platoon
After Action Review and learned from the platoon members that LTC_'s initial suspicion
of friendly fire was valid. MAl_testified that he revised the first draft of his narrative
justification upon his return from the After Action Review. He testified that he carefully
prepared the narrative to avoid stating that the enemy had killed CPL Tillman and distinctly
remembered removing a phrase asserting that CPL Tillman died "by enemy fire." When we
pointed out the inaccuracies contained in the narrative and final citation of the Silver Star award,
MAl_conceded the inaccuracies "armed with 20/20 hindsight," but stated that he believed
the drafts he prepared during the initial time period were accurate.

        The regimental personnel NCO testified that regimental policy in April 2004 required
two valorous award witness statements to accompany all valor award recommendations,
although Army regulations do not require them. MAl _             testified that he did not direct the
preparation of valorous award witness statements. Both MAl ~nd CPT_testified
that the electronic drafts they sent to the regiment did not have valorous award witness
statements attached, and both testified they did not see or review the valorous award witness
statements attributed to S G T _ o r PFC_and submitted with the Silver Star
recommendation package by the regiment. 21

        MAl_and LTC _expedited processing CPL Tillman's Silver Star award in
order to seek approval at the Department of the Army level prior to any funeral or memorial
service. Their actions were consistent with an unwritten regiment policy to have all posthumous
awards available for presentation at a Ranger's funeral or memorial service.

        As stated previously, LTC_kneW by about 10:00 a.m., on April 23, 2004, that
friendly fire was suspected. LTC       ordered an investigation by mid-afternoon April 23,


the battalion FOB on April 24, 2004. LTC

21
                                                    _s
2004, and notified COL Nixon the same day. When we interviewed LTC _          on October 16,
2006, LTC _testified that he reviewed the criteria for the Silver Star when he returned to
                                                  review convinced him that CPL Tillman's

     The valorous award witness statements were unsigned and stamped "Original Signed."


                                         FOR OFFICIAL USE ONLY
     IP02007EOO 1                                                                                   52


 actions, before he died by friendly fire, merited the Silver Star. LTC _then called
 COL Nixon and explained why he believed a Silver Star was merited. COL Nixon told him that
 he would support the Silver Star if LTC _believed it was merited.

       In sworn testimony to BG Jones on November 24,2004, LTC _explained why he
 nominated CPL Tillman for the Silver Star. LTC _   stated,

                  Pat Tillman dismounted off of vehicles; took charge of three guys.
                  With no radio, no orders, he bounded up this hill and was orienting
                  fire I know for sure as we discussed here, between E-l [enemy
                  position 1] and E-3 [enemy position 3]. As they were getting fired on,
                  he exposed himself two or three different times to friendly fire but
                  still a courageous act and out here to save his buddy's life.

 In our interview, LTC .provided a similar rationale for recommending the Silver Star.
 LTC _        testified that he considered and placed value on the information provided by
 PFC _         who had been next to CPL Tillman, and who stated that he would have died if not
 for CPL Tillman's actions.

        When we pointed out the inaccuracies in CPL Tillman's award citation, narrative, and
attached valorous award witness statements, LTC .conceded the inaccuracies but testified
that he believes the "the essence of what Pat did is represented in that narrative [and] that
citation." Further, LTC_ testified that the award would still be justified ifthe inaccuracies
are cleared up and replaced by witness statements obtained by the later AR 15-6 investigations.
LTC_asserted that CPL Tillman's valor would still be sufficient to merit a Silver Star, or
at a minimum, the Bronze Star Medal with V device for valor. He testified that CPL Tillman's
"valor is indisputable."

         On April 27, 2004, MAl_electronically submitted to L T C _
CPL Tillman's draft Silver Star citation and the narrative justification (see narrative justification
at Appendix G).22 MAl_'s draft citation does not contain the actions described in the
narrative, specific acts by CPL Tillman while under fire, or contributions to the survival of
CPL Tillman's comrades (see Appendix F, citation comparison, left column). L T C _
testified that he left MAl_s narrative unchanged, but made substantial edits to the citation
(see Appendix F, citation comparison, center column).

        The narrative justification composed by MAl _         included the following statements:
"As a result of CPL Tillman's efforts and heroic actions, the trail element of the platoon was able
to maneuver through the ambush to positions of relative safety without suffering a single
casualty"; "As the trail element of the platoon attempted to push through the ambush, the
fighting that ensued at CPL Tillman's position increased in intensity"; "During the assault,
CPL Tillman was shot and killed"; "CPL Tillman gave his own life to protect his fellow



22   L T C _ was appointed the second AR 15-6 investigating officer on May 8, 2004.



                                      FOR OFFICIAL USE ONLY
 IP02007EOO 1                                                                                                  53

 Rangers, both within his fire team and the members of his platoon trapped in an ambush kill
 zone"; and "Through his selfless service and disregard for his own safety, he is personally
 responsible for saving numerous lives," (see narrative justification at Appendix G).

         LTC _             said that he used the narrative and the two valorous award witness
 statements attributed to SGT _and PFC _ t o edit the citation. We interviewed
 SG~and P F C _ the two Rangers who purportedly signed the two valorous award
 witness statements attached to CPL Tillman's Silver Star recommendation. PFC _recalled
 writing about CPL Tillman's actions, and specifically recalled writing that CPL Tillman's
 actions saved his life, but PFC _stated that he did not sign the valorous award witness
 statement sent with CPL Tillman's Silver Star recommendation. PFC _ a l s o pointed out
 parts he knows he did not write and parts that were not accurate.

         SGT . w a s not as clear about writing a statement to support the award, but he
testified that he might have. 23 He testified that he did not sign such a statement. SGT_
confirmed some parts of the valorous award witness statement as accurate and he identified other
parts that he might have written. But SGT_also pointed out parts that were inaccurate, in
that he was unable to see CPL Tillman's actions from his location. Finally, SGT ~ointed
to a phrase "in the most gallant Ranger fashion" that he found "hokey" and stated that it was a
phrase that he would not have written. Based on our interviews, we believe the purported
statements of SGT _and PFC _                  were submitted to L T C _ b y personnel
NCOs at 2nd Battalion or at the Regiment, but we were not able to identify the specific drafter.

         COL Nixon, like LTC_ believed that CPL Tillman's actions before his death
justified award of the Silver Star. When we interviewed COL Nixon, he testified that he
reviewed the award recommendation package and had based his recommendation on
CPL Tillman's actions before his death. COL Nixon testified that he did not believe that
CPL Tillman's death by friendly fire should prevent his valor from being recognized by the
Silver Star. COL Nixon conceded the inaccuracies that the later investigations have shown.
COL Nixon also agreed that there was a need to re-look and correct the citation, narrative
justification, and valorous award witness statements. COL Nixon testified that he recommended
the award because he believed CPL Tillman's actions merited it, and not because of any concern
for his [COL Nixon's] personal reputation or the reputation of the Rangers after news of
CPL Tillman's death by friendly fire became public.

        On April 28, 2004, the regiment personnel NCO electronically submitted through
operational channels, the Silver Star recommendation that included: (1) a DA Form 638, with
recommendations of COL Nixon and MG McChrystal; (2) a Silver Star citation edited by
L T C _ ~endix F, center column); (3) the unedited narrative justification
prepared by MAl _ s e e Appendix G); and (4) two unsigned, but st~original signed"
"Valorous Award Witness" statements attributed to SGT _and PFC _                The
recommendation package was not processed through LTG Kensinger's headquarters.



 We note that both SGT " and P F C _ authored and signed sworn statements as part of CPT _
23                                                                                                         s
AR 15-6 investigation that was in process at the same time the Silver Star documentation was being compiled.


                                       FOR OFFICIAL USE ONLY
 IP02007EOO 1                                                                                                       54


         Personnel at the operational headquarters or at the Army Human Resources Command
 made further edits to the Silver Star citation, (see Appendix F, right column). At Army Human
 Resources Command, a Department of the Army Awards Board reviewed the Silver Star
 recommendation and recommended approval. On April 29, 2004, BG Gina Farrisee,
 Commander, Army Human Resources Command, forwarded the award to Mr. R. L. Brownlee,
 the Acting Secretary of the Army, who approved CPL Tillman's posthumous Silver Star. At the
 time, neither BG Farrisee nor Acting Secretary Brownlee was aware that friendly fire was
 suspected. BG Farrisee testified that if she had known friendly fire was suspected, and that an
 investigation was underway, she probably would have held the award recommendation until
 completion of the investigation. BG Farrisee testified that a Silver Star could be merited in a
 friendly fire incident, though she did not address the specific facts of CPL Tillman's death in
 giving that opinion.

        On April 29, 2004, MG McChrystal, the operational commander above COL Nixon, sent
a P4 message to LTG Kensinger and the commanders of SOCOM and CENTCOM, to alert them
that CPL Tillman had been recommended for a Silver Star, although it was "highly possible" that
an investigation would find that he died by friendly fire. MG McChrystal advised his higher
commanders that he nevertheless believed CPL Tillman deserved the award. MG McChrystal
alerted them in part so that they could inform the President or the Acting Secretary of the Army,
in case they chose to make remarks that might prove embarrassing if the public learned that
CPL Tillman died by friendly fire. 24

         One part ofBG Jones' AR 15-6 investigation attempted to answer questions asked by
CPL Tillman's mother. In a separate document attached to his report, BG Jones answered these
questions. Concerning the Silver Star, Mrs. _asked "Why was CPL Tillman's death so
embellished by the military?" BG Jones found that CPL Tillman intended to lead "an assault on
the enemy positions on the Southern Ridgeline." BG Jones stated that CPL Tillman's plan was
"audacious" and an "aggressive maneuver, at the risk of his own life, to bring the fight to the
enemy," and that CPL Tillman's commanders considered this plan as "worthy of a Silver Star."
We asked C P T _ L T C _ and COL Nixon whether they considered CPL Tillman's
intention to assault the southern ridgeline in nominating him for the Silver Star. All three
testified that they did not consider any intent of CPL Tillman to assault the southern ridge line,
but based their recommendations for the award on his personal actions to defend Serial 2 prior to
his death and his actions in the face of intense friendly fire to save PFC _

Discussion

        We concluded that the Silver Star citation and supporting documents had materially
inaccurate statements and erroneously implied that CPL Tillman died by enemy fire. We also
concluded that his immediate superiors believed his actions merited the award, and, based on the
limited information available at the time, constructed an account of the incident that they
assumed to be reasonably correct. Other revisions, as the award recommendation was processed,
compounded the inaccuracies. LTC _           COL Nixon, and MG McChrystal are accountable

24 The timing and motivation ofMG McChrystal is covered in more detail in the section that addresses notification
of next of kin. In this same section, LTG Kensinger's review of this P4 message and earlier notice of suspected
friendly fire is also addressed.


                                        FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                                            55

 for the inaccurate award recommendation. Additionally, MG McChrystal and LTG Kensinger
 are accountable for the failure to inform the award approval authority (Acting Secretary
 Brownlee) of suspected friendly fire before he approved the award or before the award was
 presented.

         The criteria for a Silver Star requires a demonstration of "gallantry in action against an
 enemy of the United States while engaged in military operations involving conflict with an
 opposing foreign force ... ," (AR 600-8-22, subparagraph 3-9.b). The form or level of gallantry
 is not defined, other than that the gallantry must be "with marked distinction." The approval
 authority for an Army military award has discretion in making these "subjective decisions,"
 (AR 600-8-22, subparagraph 3-1.c). The criteria listed above does not preclude an award of the
 Silver Star to a soldier who dies from friendly fire, if the soldier's actions prior to his death
 otherwise demonstrate gallantry of marked distinction. The Secretary of the Army is the
 approval authority for award of the Silver Star.

        CPL Tillman's commanders were confronted with information about an enemy ambush
and friendly fire incident that proved to be very confusing. CPL Tillman's award
recommendation package was rushed to ensure that the Acting Secretary of the Army could
consider and approve it before a scheduled memorial service. The regimental commander,
COL Nixon, decided not to notify the family that friendly fire was suspected until the
investigation was cornpleted.f Our review ofCPL Tillman's award recommendation revealed
several materially inaccurate statements. For example, in the case of the statement attributed to
SGT _        certain assertions could not be true because he was on the other side of a ridge from
CPL Tillman and could not see what had happened to him. Further, we concluded that an
uninformed reader could reasonably infer that CPL Tillman had been killed by enemy fire
although a careful review of the narrative and citation shows no direct assertion that he was
killed by enemy fire. As a result, the narrative justification and citation were misleading. In our
interviews, all of the commanders who recommended CPL Tillman for the Silver Star now
concede these inaccuracies.

         The citation asserts that "While mortally wounded, his audacious leadership and
courageous example under fire inspired his men to fight with great risk to their own safety." We
now know that CPL Tillman's head wounds would have killed him instantly and would not have
allowed him to inspire others while "mortally wounded." This phrasing occurred in a final edit
at either the operational headquarters or Army Human Resources Command, where they would
not have known the exact nature of his wounds. The citation also asserts that "Corporal Tillman
put himself in the line of devastating enemy fire as he maneuvered his Fire Team to a covered
position." The only devastating fire CPL Tillman received was friendly fire. We understand
from our interviews that CPL Tillman's commanders were referring to CPL Tillman and the
other Serial 1 Rangers running up to the ridge and spur to provide covering fire for Serial 2. The
Serial 1 Rangers on the ridge and spur did not receive "devastating enemy fire." Some of the
ambushed Serial 2 Rangers in the canyon may have perceived the incoming enemy mortar or
rocket-propelled grenades and small arms fire as "devastating," and the platoon leader, wounded
in the village by the friendly fire of Serial 2, thought he was hit by "intense" enemy fire. The

25 See Section IV.B. of this report on notification of next of kin that address COL Nixon's reasons for not notifying
the family before completion of the regimental AR 15-6 investigation.


                                         FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                      56


 Serial 1 Rangers, on the ridge with CPL Tillman did not experience that level of enemy fire, and
 the Ranger with CPL Tillman later testified that they did not receive enemy fire at their position.

         The narrative justification, which was not edited after it left Afghanistan, also contains
 several materially inaccurate statements. The narrative asserts that as Serial 2 attempted to "push
 through the ambush, the fighting that ensued at CPL Tillman's position increased in intensity."
In fact, after Serial 2 escaped the ambush, enemy fire did not increase; any increase in the
 "intensity" of fighting occurred because CPL Tillman and the AMF soldier were mistaken for the
enemy and were fired on by Serial 2. The narrative also asserts that CPL Tillman's "efforts and
heroic actions" allowed Serial 2 to "maneuver through the ambush to positions of relative safety
without suffering a single casualty." The platoon members knew the evening ofCPL Tillman's
death that no one in Serial 2 was injured, and while many facts were not yet clearly known, it
probably was understood then that Serial 2 drove its way out of the ambush without any apparent
assistance from Serial 1. The narrative omitted the fact that Serial 1 suffered multiple casualties
in the incident, including the deaths of CPL Tillman and the AMF soldier, and the wounds
suffered by 1LT _          and the radio operator. A third assertion is that "In the face of mortal
danger, CPL Tillman illustrated he would not fail his comrades. During the assault,
CPL Tillman was shot and killed." This assertion is not preceded by any description of an
assault by CPL Tillman or an assault by the enemy, and it does not explain who killed him or
how he was killed. It was known then that CPL Tillman was stationary, awaiting Serial 2, and
the only assault would have been Serial 2's firing on him.

       In our interview, LTC _         CPL Tillman's battalion commander, conceded each of the
inaccuracies, but he maintained that if all of these inaccuracies were corrected, CPL Tillman's
valor was indisputable and he deserved to be recognized by award of the Silver Star.
COL Nixon and MG McChrystal agree. These commanders testified that they relied upon four
main factors to conclude that CPL Tillman deserved the Silver Star at the time, and still does
today.

         Those four factors are: (l) CPL Tillman and the other Rangers with him, rushed to the
defense of Serial 2 when they heard the explosions and small arms fire from the enemy ambush;
(2) these Rangers, including CPL Tillman, did so without regard for their personal safety, in the
face of enemy fire; (3) CPL Tillman, on his own initiative, to provide additional covering fire for
Serial 2, moved to a position over the military crest from the other Rangers, exposing himself to
potential enemy fire from the southern ridgeline; and (4) CPL Tillman took valorous action to
identify himself as friendly, when he faced the deadly fire from Serial 2, actions which
PFC _believed saved his life. CPL Tillman's commanders did not directly, or clearly,
state these four factors in the award recommendation.

         Later investigations have shown that the enemy fire from the northern ridgeline was too
far away to be effective (affecting factor 2); however, that was not known by the commanders at
the time they submitted the award recommendation. Further, it is arguable whether that
knowledge changes their assessment ofCPL Tillman's valor. The commanders were judging
CPL Tillman's willingness to run toward and face enemy fire in an effort to save fellow Rangers,
first along the northern ridgeline where the enemy ambushed Serial 2, and later, when he
exposed himself to potential enemy fire from the southern ridgeline. CPL Tillman and



                                  FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                     57


PFC _         would not know whether the enemy fire would prove light, moderate, devastating or
ineffective, until they had reached and occupied their positions. After all of the investigations,
including our own, three of the four factors remain factually accurate, while one can be said to be
inaccurate in part, in that enemy fire has now been shown to have been ineffective.
CPL Tillman's commanders testified that the enemy fire he actually received does not alter the
valor he displayed in facing the enemy fire. On the basis of those four factors, and though he
died by friendly fire, the commanders testified that the award approving authority could properly
approve a Silver Star, with a corrected narrative justification and citation.

        Subparagraph 3-1.c of AR 600-8-22 recognizes that the decision to approve an individual
award is discretionary and "subjective," even if all of the award criteria are met.
Acting Secretary Brownlee still might have approved the award had he known that friendly fire
was suspected; however, he could not exercise his discretion properly when he was kept in
ignorance of important facts. More likely, as BG Farrisee testified, if she had known that a
friendly fire investigation was underway, she would have recommended that no decision be
made until the investigation was completed.

        LT C _ COL Nixon, and MG McChrystal are accountable for the inaccurate and
misleading assertions contained in the award recommendation package. COL Nixon either
should have delayed submission of the recommendation until completion of the Regimental
AR 15-6 investigation he appointed, which would have allowed him to accurately state that
CPL Tillman died by friendly fire, or he should have immediately alerted the approving
authority, the Acting Secretary of the Army. The investigation report also would have cleared up
some of the inaccuracies, though not all, as many facts of the ambush and friendly fire incident
have become clear only after BG Jones, the Army CID, and this Office, completed their
investigations.

         We found that COL Nixon delayed the communication of suspected friendly fire outside
of his chain of command because he decided that he had to complete the AR 15-6 investigation
first. The fact that COL Nixon helped draft the P4 message that MG McChrystal sent to the
commanders of SOCOM, CENTCOM, and USASOC, indicated that COL Nixon understood
how controversial an award of the Silver Star in a friendly fire incident might be. The P4
message specifically advised the recipients to alert the President and Acting Secretary Brownlee,
so that they would not be embarrassed by comments they might make where not realizing that
friendly fire was "highly possible."

        We disagree with COL Nixon's decision to pursue approval of the award before
informing the family that friendly fire was suspected. COL Nixon testified that his past
experience convinced him that valor awards should be presented at a memorial service or funeral
where a Soldier's family would be gathered together, and not delayed until completion of an
investigation. COL Nixon wanted CPL Tillman's widow and family to know how bravely he
had fought, and COL Nixon testified that in the case of such displayed valor, it should not matter
whether he died by friendly or enemy fire. While he thought it should not matter whether
CPL Tillman died by friendly fire, COL Nixon's decision resulted in the family believing they
had been purposely misled.




                                  FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                                58


         If COL Nixon, or a representative, had explained why the award was merited despite his
 friendly fire death on the basis of the four factors articulated above, the family might have
 understood. As it was, the expedited processing, without informing the family of suspected
 friendly fire, and without articulating the four factors, defeated COL Nixon's purpose, and
 caused the family to question COL Nixon's, and the Army's, true motives.

         We also found MG McChrystal accountable for not notifying the award processing
 channels that friendly fire was suspected to ensure that the recommendation was considered
 based on accurate information. We recognize that MG McChrystal's P4 message specifically
 referred to his Silver Star recommendation of April 28, 2004, and was an attempt to notify the
 Acting Secretary, through higher level commanders. But the P4 message requested his higher
 commanders to alert the senior officials so they would not be embarrassed by remarks
 concerning CPL Tillman's death should the public find out friendly fire was involved. The P4
 message did not request or suggest any action to correct the information in the award
 recommendation package.

         Finally, LTG Kensinger had an obligation to notify Acting Secretary Brownlee when he
first received information of suspected friendly fire in CPL Tillman's death, but certainly no later
than his receipt of the P4 message. LTG Kensinger knew 3 days prior to the memorial service
that the Acting Secretary was most likely unaware of the suspicion of friendly fire when he
approved the award, and he should have provided the Acting Secretary notice as the senior Army
commander in CPL Tillman's chain of command." Indeed, as the only recipient of the P4
message in the "Army" chain of command, it was LTG Kensinger's duty to provide the notice to
the Acting Secretary of the Army, as the P4 message called for, alerting the Acting Secretary and
his staff to this issue. Acting Secretary Brownlee approved the Silver Star on April 29, 2004.

       We concluded that LTG Kensinger reviewed the P4 message on April 30, 2004, after the
Acting Secretary approved the award, but before the memorial service on May 3, 2004. We also
concluded that LTG Kensinger was aware sometime on April 25, 2004, that friendly fire was
suspected. Because LTG Kensinger's headquarters did not process CPL Tillman's
recommendation package, we do not find LTG Kensinger shares accountability for the
inaccuracies in that package.

        Secretary of the Army Harvey directed a change for future approval of Army posthumous
valor awards, to address circumstances like CPL Tillman's award. Secretary Harvey directed
that no posthumous valor awards could be approved while an AR 15-6 friendly fire investigation
was still pending. The recent edition of AR 600-8-22, Military Awards, incorporates
Secretary Harvey's direction. Subparagraph 3-19.v provides that "[p]osthumous valor awards
must always reflect accurately the actual events and circumstances for which the award is being
presented." Further, the award approval authority is now required to review the completed
AR 15-6 investigation before approving a posthumous valor award and must reflect that he or
she reviewed the report on the award recommendation paperwork itself.

26Although Generals Brown and Abizaid were Army generals senior in rank to LTG Kensinger, they served injoint
billets reporting to the Secretary of Defense through the Chairman of the Joint Chiefs of Staff. Of the three
addressees on the P4 message, only LTG Kensinger reported to the Acting Secretary of the Army through the Army
Chief of Staff.


                                      FOR OFFICIAL USE ONLY
IP02007EOO 1                                                                                     59


        We recommend that the Acting Secretary of the Army, the approval authority for the
Silver Star, review CPL Tillman's valorous award recommendation and take appropriate action
after considering an accurate analysis of the facts and circumstances leading to CPL Tillman's
death by friendly fire on April 22, 2004.

         We also recommend that the Acting Secretary address and take action as he deems
appropriate for the failure of LTC _ , COL Nixon, and MG McChrystal, to submit an
accurate Silver Star recommendation, that either recognized CPL Tillman's death by friendly
fire, or alerted Acting Secretary Brownlee to the special circumstances of a pending friendly fire
investigation, in advance of his considering CPL Tillman's Silver Star recommendation.

       We further recommend that the Acting Secretary address and take action as he deems
appropriate for LTG Kensinger's failure to alert Acting Secretary Brownlee that friendly fire was
suspected.

V.     CONCLUSIONS

         A. COL Nixon failed to initiate, through the chain of command, timely notification to the
Army Safety Center and CENTCOM of suspected friendly fire in CPL Tillman's death. As a
result, neither organization could comply with its respective responsibility to assess the need for
a centralized safety investigation or to convene a legal investigation.

      B. CENTCOM failed to issue written implementing guidance required by DoDI 6055.7,
"Accident Investigation, Reporting, and Record Keeping."

       C. Each of the three AR 15-6 investigations conducted into the death ofCPL Tillman
was deficient, and thereby contributed to inaccuracies, misunderstandings, and perceptions of
concealment. Those deficiencies included:

               III   CPT_and LTC _ w e r e not appointed as investigating officers
                     by a GCMCA or at the direction of the CENTCOM Commander.

               III   CPT _and LTC _ f a i l e d to visit the scene to visually reenact the
                     incident, secure physical evidence, take photographs, or obtain accurate
                     measurements.

              III    CPT_and LTC_failed to interview all relevant witnesses and
                     address inconsistencies in witness testimony.

              III    CPT "failed to preserve or document real evidence.

              III    C P T . and M A J _ with the apparent concurrence of LTC_
                     withheld from the AFME and CID the fact that friendly fire was suspected in
                     the death ofCPL Tillman, thereby impeding completion of the AFME's final
                     autopsy report.




                                   FOR OFFICIAL USE ONLY
 IP02007EOO1                                                                                          60


                 @    LTC _ d r e w conclusions not supported by evidence included in his
                      report.

                @     BG Jones failed to interview all of the Rangers in Serials 1 and 2 to resolve
                      the uncertainty in the sequence of events that occurred on April 22, 2004.

                @     BG Jones failed to apply relevant standards and assign accountability for the
                      mishandling of physical evidence in the days following CPL Tillman's death.

                III   BG Jones failed to fully address the next of kin notification issue as a
                      violation of applicable regulations.

                III   BG Jones failed to pursue inaccuracies related to the Silver Star award,
                      reached findings not supported by testimony, and, in fact, exacerbated the
                      situation by sharing those findings with family members, senior Army
                      officials, and Members of Congress during official briefings.

                III   BG Jones failed to pursue misrepresentations on the part of LTG Kensinger
                      related to the next of kin notification issue.

       D. LTG Kensinger failed to timely appoint a safety board to investigate the fratricide
incident as required by Army regulation.

        E. LTG Kensinger provided misleading testimony to BG Jones and this Office when he
denied that he knew friendly fire was suspected before the memorial service for CPL Tillman.

       F. Responsible Army officials failed to notify the primary next of kin as soon as they
reasonably suspected friendly fire.

               III    COL Nixon was accountable for his decision to delay notification to the
                      primary next of kin until the completion of the friendly fire investigation.

               III    LTG Kensinger was also accountable as he was the commander with
                      administrative control over the 75th Ranger Regiment, and was in a position
                      to inform the primary next of kin prior to or immediately after CPL Tillman's
                      memorial service but decided not to do so.

       G. Responsible officials failed to comply with the Army military award regulation when
they submitted a Silver Star recommendation that included inaccurate information and a
misleading citation that implied CPL Tillman died by enemy fire.

              III     LTC _        COL Nixon, and MG McChrystal are accountable for the
                      inaccurate award recommendation.




                                     FOR OFFICIAL USE ONLY
IP02007EOO1                                                                                     61


               It   MO McChrystal and LTO Kensinger are accountable for the failure to inform
                    the award approval authority (Acting Secretary Brownlee) of suspected
                    friendly fire.

VI.    RECOMMENDATIONS

        We recommend that the Acting Secretary of the Army take appropriate corrective action
with respect to the officials whom we identified as accountable for the regulatory violations and
errors in judgment that are described in this review. Additionally we recommend that the
Acting Secretary initiate a review ofthe Silver Star award to ensure that it meets regulatory
requirements. We note that the Army has already taken action to delay approval of posthumous
valor awards until completion of pending investigations and has strengthened guidance
concerning next of kin notifications.

       We recommend that the Commander, CENTCOM, issue written implementing guidance
required by DoD I 6055.7.




                                 FOR OFFICIAL USE ONLY
IP02007EOO 1


                     Appendix A
                     Summary of
    Arm Criminal I                  ommand Re ort




                FOR OFFICIAL USE ONLY
                  U.S. ARMY CRIMINAL INVESTIGATION COMMAND
                                  EXECUTIVE SUMMARY

Background. In response to requests from the Inspector General of the Army and members of
Congress, in August 2005, the DODIG initiated a review of Army investigations of CPL Patrick
D. Tillman's death, and the death and injuries of others. Based on their ongoing review, the
DODIG requested on 3 March 2006, that the Commander, US Army Criminal Investigation
Command, initiate a criminal investigation into CPL Tillman's death and the death and injuries
to others.

In response to this request, CID initiated a criminal investigation on 6 March 2006. As part of
the investigation, CID deployed seven special agents and two crime lab examiners from the US
Army Criminal Investigation Laboratory (USACIL) to Afghanistan on 17-29 April 2006 to
conduct a death scene examination. Accompanying the agents into Afghanistan were two
Soldiers who were eyewitnesses to the events on 22 April 2004, when CPL Tillman was killed.
While in Afghanistan, over 80 interviews were conducted, to include identifying and
interviewing an Afghan doctor who allegedly passed information to the Rangers prior to the
incident; identifying and interviewing the truck driver who accompanied the Rangers; and
determining the identity of the Afghanistan soldier who was also killed during the incident. In
addition to the interviews, forensic processing of the death scene included video reenactments,
rock and soil samples from CPL Tillman's position, and trajectory analysis.

Concurrent and subsequent to the on-scene examination in Afghanistan, CID special agents
conducted over 160 direct and indirect witness interviews; reviewed all previous investigations,
applicable rules of engagement and standard operating procedures; and processed evidence at the
USACIL and a specialty metallurgic laboratory.

Results.

On 22 Apr 04, a platoon of Co A, 2/75th Ranger Regiment was tasked to conduct overwatch
operations near the village of Manah, Afghanistan. During the course of the movement, one of
their vehicles became disabled. After coordination to extract the disabled vehicle was
unsuccessful, a decision was made to split the platoon. Serial 1 was tasked to depart and begin
the overwatch operations, while Serial 2 was tasked to transport the disabled vehicle, with the
assistance of a local "jingle" truck, to a pre-designated location for pick up.

After the two Serials separated, and due to terrain concerns, Serial 2 changed its route and
embarked on the identical route Serial 1 had taken. Members of Serial 2 relayed the change of
route, but due to terrain, their communications were not acknowledged, and Serial 2 had no
communication with Serial 1 until after the incident.

During the movement through a canyon road (a washed out trail), Serial 2 was ambushed and
became engaged in a running gun battle with enemy combatants. Serial 1 had passed through the
same canyon without incident and was approximately 1,000 meters ahead of Serial 2. Upon
hearing the gunfire and sporadic radio communication from Serial 2, Serial 1 dismounted their
vehicles and moved on foot to a more advantageous position to provide overwatch and fire
support for Serial 2' s movement out of the ambush. CPL Tillman placed himself and a PFC into
a position at the end of a rocky ridge and directed their fire at enemy positions. AMF Soldier
Thani, armed with an AK-47, was next to CPL Tillman's position, but not under the direction or
control of CPL Tillman. The AMF Soldier Thani reportedly fired at random enemy positions
                                                                        00 13-06-CID201-50048
                  u.s, ARMY CRIMINAL INVESTIGATION COMMAND
across the wadi where Serial 2 was about to emerge from the canyon ambush area. Serial 1
unsuccessfully attempted to make radio contact with Serial 2 to advise them of their position.
When the first vehicle of Serial 2 exited the canyon, coming into view of CPL Tillman's
position, the personnel in the vehicle, not knowing Serial 1 was in the immediate area, observed
what they thought to be an enemy combatant (Thani) firing his AK-47 rifle directly over their
vehicle. Personnel in the first vehicle then returned fire on AMF Thani and CPL Tillman's
position, as well as on other nearby positions. After members of Serial 2 identified friendly
forces in the area, a cease fire was secured. A search of the scene revealed CPL Tillman and
AMF Soldier Thani were mortally wounded, and two other U.S. Soldiers were wounded.

Findings.

Investigation determined that members of Serial 2 did not commit the offenses of Negligent
Homicide or Aggravated Assault. It was determined that although CPL Tillman and AMF
Soldier Thani were killed during the incident, members of Serial 2 believed they were under
enemy fire and were returning fire at enemy combatants. Under extreme circumstances and in a
very compressed time frame, the members of Serial 2 had a reasonable belief that death or harm
was about to be inflicted on them and believed it was necessary to defend themselves.

Additional contributors to the incident were poor visibility, a lack of communication between the
Serials, and the unexpected presence of AMF Soldier Thani. Prior to this incident, AMF
Soldiers were not integrated or trained as fire team members in this Ranger platoon. There is
overwhelming evidence to substantiate CPL Tillman's and AMF Soldier Thani's deaths, as well
as the injuries sustained by the other two U.S. Soldiers, were caused by friendly fire.




                                               2
                                                                        0013-06-CID201-50048
IP02007EOO 1


                                       Appendix B
                                       Chronology
      April 22, 2004.

         o     CPL Tillman is killed in action in Afghanistan.

         o After the incident, 1S G . the company first sergeant, and, C P T _ the
           company commander, deploy separately to the scene.

         o Joint Task Force Chief of Staff, CO~ approves transmission of the
           "Real World Casualty Report 001." This report reflects the deaths and injuries as
           caused by enemy fire.

         o Initial Casualty Report is issued to                   the primary next of kin. Initial
           Casualty Report indicates cause as enemy fire.

         o PFC_informs 1SG_ company first sergeant, of the possibility of
           friendly fire from a Serial Two vehicle.

     April 23, 2004.

         o     1SG_ the company first sergeant, walks Canyon Road, the area where
               CPL ~n is killed in action. He finds American cartridge cases from
               SSG_s Ground Mobile Vehicle. He also removes an American .50 caliber
               bullet from the rock next to CPL Tillman's position.
         o     1SG _     the company first sergeant, informs CPT _              company
               commander, that fratricide is the suspected cause of death.

         o LTC _            the battalion commander, arrives at the scene of the incident.

         o   1SG _     the company first sergeant, informs CSM _          the regimental
             command sergeant major, that fratricide is the suspected cause of death.

         o CSM_ the regimental command~nt major, and 1SG_ the
           company first sergeant, informs LTC~ the battalion commander, of the
           suspected fratricide. CSM _recommends an investigation.

         o LTC _         the battalion commander, and CSM_ the regimental command
           sergeant major, tell COL Nixon, Commander, 75th Ranger Regiment, that he
           suspects fratricide and that an investigation was initiated.

        o LTC _         Commander, 2nd Battalion, 75th Ranger Regiments verbally assigns
          CPT_ Commander, Headquarters & Headquarters Company, 2/75th Ranger
          Battalion, to conduct an AR 15-6 investigation. Subsequently, COL Nixon
          appoints CPT_by memorandum dated April 29, 2004.

        o COL Nixon, Commander, 75th Ranger Regiment, calls MG McChrystal,
          Commander, Joint Task Force, to inform him of CPL Tillman's death.



                                 FOR OFFICIAL USE ONLY
IP02007EOO1


         o    MG McChrystal, Commander, Joint Task Force, while meeting with
              GEN Abizaid, Commander, Central Command, tells him CPL Tillman was killed
              in action.

     April 24, 2004.

         o    2nd Platoon (CPL Tillman's Platoon) returns to the battalion Forward Operation
              Base.

     April 25, 2004.

        o     l S G _ the company first sergeant, finds evidence of American ammunition
              in CPL Tillman's MOLLE vest and evidence of a flash-bang grenade that had
              been impacted by a bullet.

        o No later than April 25, 2004, COL Nixon, Commander, 75th Ranger Regiment,
          informs MG McChrystal, Commander, Joint Task Force, and BG Yellen, Deputy
          Commander, Army Special Operations Command, that fratricide is suspected and
          that an investigation was initiated. MG McChrystal concurs with this decision.

     April 27, 2004.

        o     Armed Forces Medical Examiner conducts autopsy at Dover Air Force Base, DE.

        o Not later than April 27, 2004, C P T _ Alpha Company Commander,
          gathers anecdotal information for recommendation of the Bronze Star Medal for
          valor from Rangers who ~esent at the incident and provides draft narrative
          and justification to MAJ_ Operations Officer, and LTC _             battalion
          commander.

        o Not later than April 27, 2004, LTC_ battalion commander, and
          C P T _ Alpha Company Commander, determine that CPL Tillman should
          be recommended for the Silver Star for valor, rather than the Bronze Star.

        o    MAJ _        drafts Silver Star citation and narrative on orders from LTC _ ,
             battalion commander.

        o MAJ"dS draft Silver Star award citation and narrative to the
          LTC              Executive Officer, 75th Ranger Regiment. No valorous witness
          statements are mcluded in the Silver Star recommendation package.

        o No later than April 27, 2004, Personnel Staff Noncommissioned Officer, 75th
          Rang~t, provided the two valorous witness statements to
          LTC ~ Executive Officer, 75th Ranger Regiment.

        o    COL Nixon, regimental commander, approves the Silver Star citation.

        o    Special Agent _        the Armed Forces Institute of Pathology Criminal
             Investigative Division agent, requests assistance from Special Agent ~ HQ
             Army Criminal Investigation Division Command, to explain and understand
             CPL Tillman's unusual wound pattern.




                               FOR OFFICIAL USE ONLY
IP02007E001

     April 28, 2004.

         o MG McChrystal, Commander, Joint Task Force, approves the Silver Star citation.

         o Personnel Staff Noncommissioned Officer, 75th Ranger Regiment, forwards the
           award recommendation to operational headquarters for further processing.

     April 29, 2004.

         o    Operational headquarters state-side faxes the Silver Star award recommendation
              to Army Human Resources Command in Alexandria, VA. Silver Star is later
              approved by Acting Secretary of the Army Brownlee.

         o The first follow-up casualty status report is released by SFC~fthe Army
           Compartmented Element for the Army Special Operations C==ct, to other
           units. The follow-up casualty updated information from the initial casualty
           report, as information was gathered. This casualty status report updated
           information such as rank and home of record, however, it still stated the cause of
           death from enemy fire.

        o MG McChrystal, Commander, Joint Task Force, sends a "Personal For" message
          to the GEN Abizaid, Commander, Central Command, GEN Brown, Commander,
          Special Operations Command, and LTG Kensinger, Commander, Army Special
          Operations Command, telling them friendly fire would be the likely outcome of
          the pending investigation, however, the fratricide should not take away from the
          valorous Silver Star award. The report recommends the addressees warn the
          Secretary of the Army and the President to deter embarrassment in their possible
          speeches.

     April 30, 2004.

        o     GEN Brown, Commander, Special Operations Command, responds to
              MG McChrystal's "Personal For" message. GEN Brown's response states that he
              understands the possibility of fratricide. He also states that the fratricide in no
              way detracts from CPL Tillman's heroism in the face of the enemy.

        o Army Special Operations Command Public Affairs Office dispatches a press
          release announcing the award of the Silver Star to CPL Tillman. CPL Tillman is
          posthumously awarded the Silver Star, Meritorious Service Medal, the Army
          Good Conduct Medal, and the Purple Heart.

        o     Officer in Charge of Army Spec.i2!....Q.l2erations Command Army Compartmented
              Element Message Center, LTC_ personally delivers the "Personal For"
              Message from MG McChrystal, Commander, Joint Task Force, to
              LTG Kensinger, Commander, Army Special Operations Command, and witnesses
              LTG Kensinger reading the message.

     May 3, 2004.

        o     CPL Tillman memorial service is held in San Jose, CA.

     May 4, 2004.

        o C P T .submits his AR 15-6 recommendations and findings to COL Nixon.


                                FOR OFFICIAL USE ONLY
IP02007EOO 1


      May 7, 2004.

         o     SFC _          releases the second supplemental casualty status report. The second
               supplemental casualty report still state casualties were inflicted by enemy fire.
               The second supplemental casualty report updated field 61, the incident remark
               field, and field 39, the circumstances. Other minor changes are made as well.

      May 8, 2004.

         o After reviewing CPT_s investigation, COL_Nixon          Commander, 75th Ranger
           Regiment appoints his Executive Officer, LTC               to continue
           CPT.s AR 15-6 investigation because of his dissatisfaction with the
           thoroughness of the initial investigative work. COL Nixon notifies BG Yellen,
           Deputy Commander, Army Special Operations Command and MG McChrystal,
           Commander, Joint Task Force, of the appointment.

     May 16,2004.

         o L T C _ Executive Officer, 75th Ranger Regiment completes the
           AR 15-6 legal inviilstiation. The legal investigation concludes friendly fire from
           Serial Two, SSG         s vehicle, killed CPL Tillman.

     May 16,2004.

         o     Some time between May 16 and 20, GEN Abizaid, Commander, Central
               Command, receives the "Personal For" message transmitted by MG McChrystal,
               Commander, Joint Task Force, on April 29, 2004.

     May 17, 2004.

         o L T C _ Legal Advisor, Joint Task Force, is forwarded
           LTC               s AR 15-6 investigation. He conducts a legal review of the
           investigation, and approves it.

        o No earlier than May 17, 2004, COL Nixon, regimental commander, approves
          LTC _            s investigation and forwards the investigation to
          MG McChrystal, Commander, Joint Task Force.

     May 25, 2004.

        o MG McChrystal, Commander, Joint Task Force, endorses and concurs with the
          AR 15-6 investigation and forwards it to GEN Abizaid, Commander, Central
          Command.

     May 26, 2004.

        o LTC _        battalion commander, informs                       that friendly fire, not
          enemy fire, killed CPL Pat Tillman.




                                 FOR OFFICIAL USE ONLY
IP02007EOO 1

      May 27, 2004.

         o LTG Kensinger, Commander, Army Special Operations Command contacts
           BG Farrisee, Commander, Army Human Resources Command, for advice on how
           to proceed in informing the next of kin of the friendly fire that caused
           CPL Tillman's death.

         o LTC _ , battalion commander, briefs                       of the circumstances and
           the fr~ fire of her husband's death.

     May 28, 2004.

         o MajGen John Sattler, United States Marine Corps, Director of Operations, Central
           Command, approves the second AR 15-6 investigation, through the issuance of
           the Memorandum, Subject: Report of Fratricide Investigation. In this
           memorandum, he certifies that the investigation was conducted in accordance
           with DoD Instruction 6055.7. The memorandum and investigation is forwarded
           to the Commanders of the Joint Task Force, Army Special Operations Command,
           and Special Operations Command.

         o     GEN Abizaid, Commander, Central Command, approves the completed legal
               investigation.

                                recei~a reporter when the story leaked.
                                c a l l s _ a n d he informs his mother of the friendly
                                Tillman.

     May 29, 2004.

        o LTG Kensinger, Commander, Army Special Operations Command, conducts
          press conference to confirm that CPL Tillman was killed by friendly fire.

                          battalion commander, and_separately b r i e f .
                                       of the fratric~CPL Tillman's eat.

     June 3, 2004.

        o    The third supplemental casualty report changes the inflicting force to "unknown."
             An "unknown" status indicates a pending determination.

     June 16,2004.

        o    COL Nixon, regimental commander, briefs the Tillman family on the events
             surrounding CPL Tillman's death.

     October 4, 2004.

        o Acting Secretary of the Army Brownlee briefs Senator McCain on the concerns of
          the Tillman family.

     October 5, 2004.

        o Mrs.               sends Senator McCain an e-mail with questions surrounding
          CPL Tillman's death.


                               FOR OFFICIAL USE ONLY
IP02007EOO 1

      October 7, 2004,

         o Mrs.              sends Senator McCain an e-mail with additional questions
           surrounding CPL Tillman's death.

      October 13, 2004,

         o     Senator McCain forwards Mrs.                 s questions to Acting Secretary of
               the Army Brownlee and requests an investigation.

     November 3,2004,

         o Acting Secretary of the Army Mr. Brownlee directs LTG Kensinger, Commander,
           Army Special Operations Command, to conduct an additional inquiry of the
           AR 15-6 investigation and to answer questions from the Tillman family.

     November 8, 2004,

         o LTG Kensinger, Commander, Army Special Operations Command, appoints
           BG Jones, Commander, Army Special Forces Command, as the AR 15-6
           investigating officer.

     January 7, 2005,

         o   BG Jones, Commander, Special Forces Command, submits the AR 15-6
             investigation to LTG Kensinger, Commander, Army Special Operations
             Command.

     January 10,2005,

        o C O L _ Staff Judge Advocate, completes the legal review ofBG Jones',
          Com~Army Special Forces Command, AR 15-6 investigation and
          determines that the investigation is legally sufficient.

        o LTG Kensinger, Commander, Army Special Operations Command, approves the
          AR 15-6, and forwards the investigation to LTG Stanley Green, Army Inspector
          General.

     February 7, 2005.

        o The Army Inspector General, LTG Stanley Green, reviewed the AR 15-6
          investigation and requested LTG Kensinger, Commander, Army Special
          Operations Command, conduct additional work.

     March 3, 2005.

        o BG Jones, Commander, Special Forces Command, sends memorandum to
          LTG Kensinger, Commander, Army Special Operations Command, detailing the
          results of his follow-up work.




                                FOR OFFICIAL USE ONLY
IP02007EOO 1

      March 8, 2005.

         o LTG Kensinger, Commander, Army Special Operations Command, forwards the
           completed AR 15-6 investigation and results to the Army Inspector General,
           LTG Stanley Green.

      March 9, 2005.

         o Army Inspector General, LTG Stanley Green, received and reviewed the
           additional information from LTG Kensinger's completed investigation.

     March 16,2005.

         o Army Inspector General, LTG Stanley Green, determined that all issues were
           fully addressed in LTG Kensinger's AR 15-6 investigation.

     April 21, 2005.

         o In a letter addressed to BG Jones, Commander, Special Forces Command, Mr..
           _                 accused BG Jones of failing to properly investigate his son's
           ~

     May 12, 2005.

         o BG Jones, Commander, Army Special Forces Command, refers Mr. _
           _      s, letter to LTG_ley Green, Army._nsector General. BG Jones' Staff
           Judge Advocate, LTC        forwards Mr.        s letter to his supervising
           Judge Advocate.

     May 26, 2005.

        o LTG Stanley Green, Army Inspector General, receives BG Jones' referral.

     June 2, 2005.

        o LTG Stanley Green, Army Inspector General, refers                s complaint
          letter to the DoD Inspector General.

     June 6, 2005.

        o The Deputy DoD Inspector General for Investigations requests Investigative
          Policy and Oversight review the matter under the purview of investigative
          oversight.

     March 3, 2006.

        o Deputy Inspector General for Policy and Oversight requests Army Criminal
          Investigation Command to initiate a criminal investigation into CPL Tillman's
          death and the death and injuries to the other soldiers.




                             FOR OFFICIAL USE ONLY
IP02007EOO 1


                            Appendix C
                  Fratricide Investigation Process
     The following chart illustrates the ways in which organizations did not fully comply with
     the requirements of the process for investigating the fratricide of Corporal Patrick
     Tillman.

     The chart is divided into 2 sections: the top section depicts the established process for
     investigating fratricide, and the bottom section shows the process used to investigate the
     death of Corporal Patrick Tillman. The chart's key can be found in the lower left-hand
     corner of the page.

     The events have been placed on the chart in chronological order as they should happen in
     the top section, and as they did happed in the bottom section. The red shapes on the chart
     show a deviation from the established process.




                               FOR OFFICIAL USE ONLY
                            •                                                                  ~
                                                                                               z
                                                                                               0


                                  !'il
                                  It  I                                                        '"
                                                                                               ~


                                                                                               "--c'
                                  it   l ,                                                     u
                                                                                               .
                                                                                               i;;
                                                                                               0

                                                                                               .'"
                                                                                               0


                                             ~I i!!lil
     <1>•                                    l             hill'
          I   lit     !
                      ia


••    "
      J'I              ! j il l
                                                                                         III
                                                                                        11
~     ii-              ~ ill!                                                           ..
                                                                                        n
     ®IIII!
c,
g•
•
~
 •                         , Iltl                                                       II II
s>
 •    it      Iliff               1"11                                                  hI!
                                                                                        i I I'
~

      ""-
£ ~~~~ I                        U~J.   1d::> JO ~NP ~ 81eflQse.o.U1 ~ pasn SS<iOO.Id   ~I l
IP02007EOO 1


                           Appendix D
                     Casualty Reporting and
                  Next orKin Notification Process


     The following chart illustrates the ways in which the Army did not fully comply with
     DoD and Army requirements for casualty reporting and next of kin notification in the
     death of Corporal Patrick Tillman.

     The chart is divided into 4 sections: the top section depicts the Army's initial casualty
     reporting process followed by the actual process used to report the death of
     Corporal Patrick Tillman below it, the third section from the top shows the Army's
     supplemental casualty report process for suspected friendly fire followed by the actual
     process used in the death of Corporal Patrick Tillman. The chart's key can be found in
     the lower left-hand corner of the page.

     The events have been placed on the chart in chronological order as they should happen in
     the top half of each section and as they did happen in the bottom half of each section.
     The red shapes on the chart show a deviation from the Army process.




                               FOR OFFICIAL USE ONLY
IP02007EOO1


                              Appendix E
                      Silver Star Award Process

     The following chart illustrates the ways in which the Army did not fully comply with
     DoD and Army requirements for the award of the Silver Star to Corporal Patrick Tillman.

     The chart is divided into 3 sections: the top section depicts the Army's award process,
     the middle section shows any special requirements of the 75th Ranger Regiment, and the
     bottom section shows the process used by the Army in the case of Corporal Patrick
     Tillman. The chart's key can be found in the lower left-hand corner of the page.

     The events have been placed on the chart in chronological order as they should happen in
     the top section, and as they did happen in the bottom section. The colored shapes in the
     top section have matching colored shapes in the bottom section in order to show who was
     required to perform an action and who actually performed that action. The red shapes on
     the chart show a deviation from the Army process.




                              FOR OFFICIAL USE ONLY
    IP02007EOO I


                                      Appendix F
                               Silver Star Award Details
                        Side by Side Comparison of Edited Award Citations

    Citation drafted by                   Citation as edited at                  Citation as appears on
    Battalion Operations Officer          75th Ranger Regiment                   award approved by HQDA
 For exceptionally valorous              For gallantry in action against an     For gallantry in action on 22 April
 achievement as a rifle team leader      armed enemy, while serving as a        2004 against an armed enemy
for Alpha Company, 2d Battalion,         Ranger Rifle Team Leader during        while serving as a Rifle Team
 75th Ranger Regiment during             Operation Enduring Freedom on          Leader in support of Operation
Operation Enduring Freedom.              22 April 2004. Caught between          Enduring Freedom. Corporal
During this period, Corporal             the crossfire of an enemy near         Tillman put himself in the line of
Tillman's leadership as a rifle          ambush, Corporal Tillman put           devastating enemy fire as he
team leader during combat                himself in the line of devastating     maneuvered his Fire Team to a
operations contributed to the            enemy fire as he maneuvered his        covered position from which they
overall success of the Joint Task        fire team to a covered position        could effectively employ their
Force. His outstanding leadership,       from which they could effectively      weapons on known enemy
dedication to duty, and                  employ their weapons on known          positions. While mortally
commitment to excellence                 enemy positions. His audacious         wounded, his audacious leadership
contributed to mission success on        leadership and courageous              and courageous example under fire
every level. His efforts helped in       example under fire inspired his        inspired his men to fight with great
the ongoing war on terrorism and         men to fight at great risk to their    risk to their own personal safety,
significantly improved the combat        own personal safety, resulting in      resulting in the enemy's
capability of the Joint Task Force.     the enemy's withdrawal, his             withdrawal and his platoon's safe
Corporal Tillman's distinctive          Platoon's safe passage from the         passage from the ambush kill
accomplishments reflect great           ambush kill zone, and his mortal        zone. Corporal Tillman's personal
credit upon himself, this               wound. Corporal Tillman's               courage, tactical expertise and
command, and the United States          personal courage, tactical              professional competence directly
Army. Period: 22 April 2004. I          expertise, and professional             contributed to this platoon's
                                        competence directly contributed to      overall success and survival.
                                        his Platoon's overall success and       Through his distinctive
                                        survival. In making the ultimate        accomplishments, Corporal
                                        sacrifice for his Team and Platoon,     Tillman brought credit upon
                                        Corporal Patrick D. Tillman             himself, the 75th Ranger
                                        reflected great credit upon himself,    Regiment, and the United States
                                        the Joint Task Force, and the           Army.'
                                        United States Army.'




J April 27,2004, 12:35 PM, email message, Subject: CPL Tillman Award, Attachment: Tillman Award Memo.doc.
2 April 28. 2004, 5:14 PM, email message, Subject: CPL Tillman Silver Star, Attachment: Tillman Silver Star.doc
3 April 30, 2004, Silver Star award citation as approved by HQ DA.




                                       FOR OFFICIAL USE ONLY
IP02007EOO 1


                          Appendix G
         Justification Submitted to Support Silver Star



         Enclosure 1 ::'{nrradve

                 Corporal Palrick D, Tillman served as a Rifle Team Leader f o r _                           r',l
        75th Ranger Regiment in support of OPERATION ENDU'RlNG FREEDO                             to 22
        April 2004. During this period, CPL Tillman was responsible for leading h                 unng
        numerous combatoperations including Air Assault Raids, Mounted and Dismounted patrols, and Ground
        Assault Convoys. Although ajunior ranking Ranger, CPL Tillman displayed the maturity and "cool
        under fire" mentality normally seen in seasoned Ranger NCOs.

                 On 22 April, 1004, CPt Tillman'                 ' s conducting a Ground Assault Convoy in
        vicinity c~       -t ~near the town                           ghanistan, -The          was split into two
       sections, separated~undred meters, cPt                           s team was a partofthe lead section moving
       to cleara village in their zone, while the trail section was escorting a disabled vehicle toa maintenance
       contact team north of their zone. As the"             las moving through anarea ofhighly restrictive terrain,
       the trail section came under attack, receiving suppressive mortar andsmall arms fire, The nature of the
       cavernous terrain made it extremely difficult to target the enemy positions, and there was no room tor the
       Rangers of thistrail element to maneuverout of thtlllzone,

               CPL Tillman's element was alreadysafely through the ambusI8zone, and his selfless actions
      that followed embodied every aspect of the Ranger Creed. Withou: regard for his own personal safety
      and thinking only of his fellow Rangers trapped in the ambush, CPL Tillman dismounted and maneuvered
      his team upa hill towards the enemy' 5 location. As CPL Tillman crested the hill, he maneuvered his
                                                                             rro
___teamjmQ pQsiJiQns t~~l..ll:lPj"~silh~ enrnJ)LiILoI4er t9Jl,UQW th~r~sl o I:: convQYJQeIc~p.~Jhe ambus.b!-
     Only after his team engaged :his well-armed enemy did it appear that the enemy's volume offire into the
    ImifW~one diminished. Above the din orbartJe, CPL Tillman was heard issUing fire ccmmands to-take the
     lighttoan e~emy on the dominadng high ground. Always leading from the front, CPL Tillman
     aggressively maneuvered histeam against !he enemy positions upthesteep slope and personally'
    emplaced each member of his team under the bestcover available in the area for their protection. CPt
    Tillman took up his own position behind t               torratie weapon that he was carrying todirect the
    fires of his team. As a result of CPL Tillman 's e rts and heroic actions, the trail element oftheE.
    was able to maneuver through theambush to positions ofrelative safety without suffering a single
    casualty.

               As the trait element of th~ttempted topush through theambush, the fighting that ensued
     at CPL Tillman'sposition Increased in intensity, CPL Tillman focused allof hisefforts onkeeping the
     men of his team safe while continuing to press the anack himself without regard for his personal safety.
     1., the face of'mortal danger. CPL Tillman i!lusrrated lhat he would notfail his comrades. During the
     assault, CPL Tillman was shot and killed.

             CPL Tillman zavehis own lifeto protect his fellow Rangers, both Within his fire team and the
     members of his           apped in anambush kill zone. The fact that no oneinhis team orinthe !rail
     element of the          as injured Isa direct result of CPL Tillman's leadership and heroic actions.
    Through hissel ess service anddisregard forhis own safety, heis personally responsible for saving
    numerous lives. Hisactions are in keeping with the highest standards of theUnited States Army and are
   'fullydeserving of the Silver StarMedal.




                                       FOR OFFICIAL USE ONLY
